<html>
<title> - CHILD PROTECTION PROGRAMS IN FLORIDA</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                  CHILD PROTECTION PROGRAMS IN FLORIDA

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 14, 1998

                               __________

                             Serial 105-99

                               __________

         Printed for the use of the Committee on Ways and Means


                               <snowflake>


                     U.S. GOVERNMENT PRINTING OFFICE
60-952 CC                    WASHINGTON : 1998



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        BARBARA B. KENNELLY, Connecticut
JIM BUNNING, Kentucky                WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
JOHN ENSIGN, Nevada
JON CHRISTENSEN, Nebraska
WES WATKINS, Oklahoma
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                  E. CLAY SHAW, Jr., Florida, Chairman

DAVE CAMP, Michigan                  SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               FORTNEY PETE STARK, California
MAC COLLINS, Georgia                 ROBERT T. MATSUI, California
PHILIP S. ENGLISH, Pennsylvania      WILLIAM J. COYNE, Pennsylvania
JOHN ENSIGN, Nevada                  WILLIAM J. JEFFERSON, Louisiana
J.D. HAYWORTH, Arizona
WES WATKINS, Oklahoma


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.




                            C O N T E N T S

                               __________

                                                                   Page

Advisory of December 2, 1998, announcing the hearing.............     2

                               WITNESSES

American Federation of State, County, and Municipal Employees 
  (AFSME), Local 3041, Carol Ann Loehndorf.......................    46
Broward County Foster Parents Association, Linda Day.............    67
Children's Home Society of Florida, Kathryn R. O'Day.............    70
Dave Thomas Foundation for Adoption:
    Dave Thomas..................................................     6
    Jan Hefner...................................................     6
Florida Department of Children and Families:
    Linda F. Radigan.............................................    18
    Johnny L. Brown..............................................    33
Florida Dependency Court Improvement Program, and Seventeenth 
  Judicial Circuit of Florida, Hon. Kathleen A. Kearney..........    14
Handy, Inc., Eileen Donais.......................................    74
Jenne, Hon. Ken, Broward County, Florida.........................    10
Meyer, Christine, Seventeenth Judicial Circuit of Florida........    43
Sanderson, Hon. Debby P., Florida State House of Representatives.     8
Talenfeld, Howard M., Colodny, Fass & Talenfeld, P.A.............    37
Youth Law Center, Howard M. Talenfeld............................    37

                       SUBMISSIONS FOR THE RECORD

Jane Addams Hull House Association, Chicago, IL, Gordon Johnson, 
  statement and attachments......................................    85
Koenig, Hon. Julie, Circuit Court Judge, Seventeenth Judical 
  Circuit of Florida, letter.....................................    87




                  CHILD PROTECTION PROGRAMS IN FLORIDA

                              ----------                              


                       MONDAY, DECEMBER 14, 1998

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:09 a.m., in 
the City Commission Chambers, Fort Lauderdale, Florida, Hon. E. 
Clay Shaw, Jr. (Chairman of the Subcommittee), presiding.
    [The advisory announcing the hearing follows:]




ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE

December 2, 1998

No. HR-20

                    Shaw Announces Field Hearing on

                            Child Protection

    Congressman E. Clay Shaw, Jr., (R-FL), Chairman, Subcommittee on 
Human Resources of the Committee on Ways and Means, U.S. House of 
Representatives, today announced that the Subcommittee will hold a 
field hearing on child protection programs in Florida and other States. 
The hearing will take place on Monday, December 14, 1998, in the Fort 
Lauderdale City Hall, Fort Lauderdale, Florida, beginning at 10:00 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include a State legislator, State and local social 
service administrators, judicial and law enforcement representatives, 
child welfare practitioners, and researchers. Any individual or 
organization not scheduled for an oral appearance may submit a written 
statement for consideration by the Committee and for inclusion in the 
printed record of the hearing.
      

BACKGROUND:

      
    The Subcommittee has jurisdiction over most Federal foster care and 
adoption programs. The first major reform of the child welfare system 
in almost two decades, the Adoption and Safe Families Act of 1997 (P.L. 
105-89), was initiated in the Subcommittee and signed into law just one 
year ago. The legislation establishes new procedural requirements to 
promote child safety, to shorten the time a child spends in foster 
care, and to expedite the adoption process. One of the most important 
requirements makes a child's health and safety the paramount concern in 
any efforts made by the State to preserve or reunify families. The 
legislation also provided States with additional resources from the 
Federal Government including the expansion of family preservation 
programs and the promotion of adoption services.
      
    The Subcommittee is traveling to Florida to determine what barriers 
exist to full implementation of the Adoption and Safe Families Act of 
1997 and to exercise oversight over programs established to protect 
abused and neglected children. The hearing will provide an opportunity 
for the Subcommittee to hear directly from State legislators who, along 
with the Federal Government, provide funding for child protection 
programs, from judges and appointed legal advocates who adjudicate and 
represent abused and neglected children in court, and from child 
protection administrators and practitioners who provide services to 
maltreated children and their families.
      
    In announcing the hearing, Chairman Shaw stated: ``The Subcommittee 
is holding this hearing as part of our ongoing responsibility to 
monitor the effectiveness of child protection programs throughout the 
United States. The safety of abused and neglected children must be a 
paramount concern at all levels of government and in all parts of our 
communities. We are especially interested in how the major child 
protection reforms enacted as part of the 1997 adoption law are being 
implemented in Florida and what more needs to be done to keep children 
safe both in their own families and in the foster care system.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on what the Federal Government can do to 
help State and local governments provide assistance to troubled 
children and their families and to keep children safe in the foster 
care system. The Subcommittee is interested in learning about the 
problems that exist in Florida and elsewhere across the nation that 
result in leaving abused children in dangerous situations either by 
returning them to unfit biological parents or by placing them in a 
child protection system that fails to protect them.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect 5.1 format, with their name, address, and 
hearing date noted on a label, by the close of business, Monday, 
December 28, 1998, to A.L. Singleton, Chief of Staff, Committee on Ways 
and Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette WordPerfect 5.1 
format, typed in single space and may not exceed a total of 10 pages 
including attachments. Witnesses are advised that the Committee will 
rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``http://www.house.gov/ways__means/''.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      

                                <F-dash>

    Chairman Shaw. The hearing will come to order. I first of 
all want to thank the folks here in Ft. Lauderdale, the city 
commission, the mayor, and the city manager for allowing me to 
come home. I spent many years behind this podium as a 
commissioner and as the mayor, so I feel very comfortable in 
this room.
    I am also very pleased that my friend Phil English from 
Pennsylvania is here to be part of this hearing. He also serves 
on the Human Resources Subcommittee of the Ways and Means 
Committee.
    Last of all, and certainly not least of all, I am very 
pleased to welcome all of our friends, Dave Thomas, and all of 
our other distinguished witnesses for this hearing. I see Ken 
Jenne is here with us among the others. Thank you, Phil, for 
coming to Florida for this hearing. I know it is a heavy duty 
leaving Pennsylvania in December to come to the State of 
Florida. We are delighted to see you.
    The purpose of this hearing is to continue the Ways and 
Means Committee's examination of the Nation's child protection 
programs. The children being cared for by the child protection 
programs run by the States, counties, and cities of our Nation 
are the most vulnerable children in our society today. They 
have been abused or neglected by their parents. To protect 
them, the State assumes custody and places them either in 
foster homes or some other type of foster facility. Now removed 
from their parents, some of them are still vulnerable to 
further abuse or neglect unless government is vigilant in 
protecting them. But government does not always do a good job. 
That is why, like many other officials, child advocates and 
scholars, we on the Ways and Means Committee have been working 
so hard over the past 4 years to improve the Nation's child 
protection programs, and that includes adoption laws. The 
Federal role is to provide the broad framework for the program, 
to provide States with adequate funding to help low-income 
families, and ensure program accountability.
    The Adoption and Safe Families Act which was written 
primarily by our Committee and passed by an overwhelming 
bipartisan vote in 1997 is an example of our commitment to 
improving child protection programs, in this case, by 
shortening the length of time children spend in the limbo of 
foster care and by providing States with financial incentives 
to increase adoption. Similarly, our legislation on racial 
discrimination in foster care and adoption placement which was 
enacted in 1996 is further evidence of our commitment to 
getting children out of foster care as quickly as possible.
    In examining the Federal law and in examining the State 
laws and what some of the problems are, we found that many of 
the problems were caused by Federal law, which simply put 
barriers in the way of adoption. We have cleared away much of 
that clutter, and hopefully it will come up and give us great 
dividends in placing children in permanent adopting homes.
    We are here today primarily in our role of ensuring 
accountability. Is the State of Florida implementing a child 
protection program that makes the safety of these children of 
paramount importance, and at the same time one that gets 
children into permanent settings as quickly as possible? Is the 
State of Florida aggressively implementing the Adoption and 
Safe Families Act and the interethnic adoption provision? If 
not, what can we do at the Federal level to ensure that Florida 
improves in its performance?
    Here, I want to mention one issue that the Committee plans 
to examine very carefully this year. The Federal Government now 
provides States with a great deal of money, but the system by 
which we provide it is flawed. The system is flawed because we 
provide generous open-ended fundings for children who have been 
removed from their families but cap inflexible funds for 
providing the much needed services to prevent the unnecessary 
removal of children from their homes. To remedy this problem, I 
would like to provide States with more control over their 
funds. The States are doing an exemplary job with the 
flexibility we have given them with the new welfare reform 
legislation, and I believe they would do an equally good job in 
using more flexible child protection funds. But many advocates 
and policymakers want the Federal Government to maintain a 
strong regulatory role over the State and local child 
protection programs. Perhaps we can develop reforms that will 
ensure more flexibility and strong Federal oversight. I hope 
our witnesses will address these issues today.
    Before hearing from witnesses, I want to make an important 
point about how I plan to conduct this hearing this morning. 
Broward County is now involved in a court suit concerning its 
child protection program. It is my fervent desire, and actually 
my commitment, to avoid making any comments on either side of 
this case, and I strongly suggest that our witnesses do the 
same. In fact, I request that our witnesses do the same. The 
court suit should be allowed to run its course without any 
interference from other branches of Federal or State 
government. We have invited witnesses representing all sides of 
this suit, but this is not the setting or the time to discuss 
this case itself. I am sure that all of you understand this and 
will abide by our wishes in this regard.
    I will now recognize Mr. English for any opening statement 
that he might have.
    Mr. English. Mr. Chairman, in the interest of brevity, I 
will keep my remarks short. I just want to thank you for 
sponsoring this hearing, which is the latest in a series of 
field hearings and hearings in Washington that you have done on 
this subject. I am looking forward to seeing what is going on 
in Florida and comparing it with what we are trying to do in 
Pennsylvania. I think our problems are similar and I will be 
particularly interested to see how Florida is proceeding with 
these very, very difficult issues.
    Mr. Chairman, I also want to congratulate you. I realize 
this is the last hearing that you are going to be chairing of 
this Subcommittee. If I may be permitted to say so, you have 
been a superb advocate as a Chair of the Human Resources 
Subcommittee, and a lot of us are looking forward to your work 
as Chairman of the Social Security Subcommittee in the new 
Congress. I believe that as a longtime Member, 4 years serving 
under you on the Human Resources Subcommittee, not only have I 
learned a lot, but also, we have done extraordinary things in 
Congress, and I want to congratulate you for that.
    Chairman Shaw. Thank you very much for your kind remarks. I 
would like to say that I will be leaving the Subcommittee in 
good hands with Nancy Johnson. I believe she will be taking it 
as Chairwoman from the State of Connecticut.
    Now we get to our hearing. Our first witness is no stranger 
to this Subcommittee. He has testified before our Subcommittee 
in Washington. He has become, I think, perhaps the national 
poster child for adoption, being the founder of the Dave Thomas 
Foundation for Adoption in Dublin, Ohio. I might say too with a 
great deal of pride that he is one of my constituents here in 
Fort Lauderdale. Dave, proceed as you wish. I understand that 
you are not going to be reading your full testimony yourself 
because of your voice, but if you would like to proceed.

 STATEMENT OF DAVE THOMAS, FOUNDER, DAVE THOMAS FOUNDATION FOR 
 ADOPTION, DUBLIN, OHIO; ACCOMPANIED BY JAN HEFNER, DIRECTOR, 
              DAVE THOMAS FOUNDATION FOR ADOPTION

    Mr. Thomas. Thank you. Let me just say thank you very much 
for allowing us to be here. I would like to say, Chairman Shaw, 
you have done a wonderful job for adoption, trying to get these 
kids. All they want to do is have a permanent and loving home. 
Jan Hefner is the director of my foundation and she wrote these 
remarks and I am going to let her say these remarks. So go 
ahead and testify.
    Ms. Hefner. Mr. Shaw and Mr. English, good morning. As a 
matter of fact, these remarks are a compilation of things that 
Dave has shared with folks across the country, so we just 
wanted to bring a few of those to you this morning.
    In essence, Wendy's and the Dave Thomas Foundation have 
tried to make the public more aware of the youngsters that are 
in foster care through public service announcements and 
Internet sites, adoption fairs, bus cards, and other kinds of 
media, and our local partners, our stores, our franchisees, 
they are a very, very important part of the team. We have all 
been working together to recruit parents, to educate judges and 
elected officials about these kids. We are very thankful to 
you, Mr. Shaw and your colleagues in Congress, for passing the 
Adoption Tax Credit as well as the Adoption and Safe Families 
Act.
    Since you were gracious enough to invite me, as Mr. Thomas' 
remarks said, I would like to share a couple of comments. First 
of all, he feels very strongly that States and counties have a 
huge responsibility to be sure that not only the letter of the 
law is implemented, but also the spirit of the law. After all, 
if local officials make sure that the best interest of each 
child is number one, then your communities will be much safer, 
happier, and healthier.
    Good and timely services for families have to be available 
right away so as many families as possible can stay out of the 
system altogether and stay together. Foster care is very 
important. It is a lifeline for children in crisis, but it is 
not meant to be permanent in any way.
    We also believe that every child can be adopted, every 
child deserves a family. We just have to find the right one in 
a timely manner. Also, potential adoptive families need to be 
treated kindly and gently like the really important people they 
are. That goes for foster families also.
    We must also pay attention to the court system. We need 
excellent tracking systems within the court and these need to 
be able to talk to the social service systems. If we do not 
have that kind of connection, then we are going to lose a lot 
of the accountability and the ability to do the implementation 
of the spirit of the law.
    We also need committed and well-trained judges who hold 
everyone accountable to do the right things for children. They 
are the gatekeepers, and we just hope that all of the judges in 
the State of Florida understand that. In fact, they are the 
ones who must hold folks accountable for this. We know that 
Judge Kearney has been doing a terrific job down here, and wish 
her well in her new position.
    Finally, Mr. Chairman, we need to make sure that each one 
of us in our own special way in this beautiful community of 
Fort Lauderdale do what we can to make sure every child has a 
safe and loving home to start their life out right. That much 
we owe them.
    Thank you, Mr. Chairman.
    Chairman Shaw. Mr. English.
    Mr. English. I wonder if our two witnesses could 
generalize--I know this is a very broad stroke I am inviting 
you to give, but can you generalize for us, if we had a 
stronger adoption policy in this country, if we were doing a 
better job, as I think our policy--the direction our policy is 
now headed in, doing a better job of placements earlier on, can 
you quantify for us what impact it would have on communities 
like Florida?
    Ms. Hefner. The latest research that we are aware of from 
WESAT indicated that about 10 years ago if the youngsters that 
were in foster care had been placed much earlier with adoptive 
families, then it would save literally billions of dollars 
across the country. I am sure that is the case here in Broward 
County. It has got the second largest number of youngsters in 
care in Florida. So not only would you save the administrative 
costs of children in foster care, there is also the 
longitudinal issues. Hopefully, those kids will not then be 
involved in either the juvenile justice system or the adult 
system, or would they be homeless on the streets because they 
would, in fact, have a family that they can connect to. So 
there is not only the spiritual and moral issues, there are 
also financial issues.
    Mr. English. Thank you, Mr. Chairman.
    Chairman Shaw. Thank you.
    Dave, as I mentioned earlier, you are very active and not 
only are you an adopted child yourself a few years back, but 
you were very active in Washington on the passage and testified 
regarding the Adoption and Safe Families Act, as I recall. You 
were also at the White House with me for the signing. I think 
such moments in history should some way be memorialized and I 
have something I would like to present to you at this time.
    What we have here is a signed copy of the act, together 
with the ceremonial pen with which it was signed into law by 
President Clinton.
    [Presentation.]
    Mr. Thomas. Thank you very much.
    [Applause.]
    Chairman Shaw. Yes, sir.
    Mr. Thomas. Now all we have got to do is make it work.
    Chairman Shaw. Right. You are a tough guy. He says now let 
us make it work. OK.
    Mr. Thomas. We have it, now we need to implement it. This 
was the first step.
    Thank you.
    Chairman Shaw. On our second panel, we have Hon. Linda--oh, 
Ms. Radigan will be coming later. Evidently, her plane is 
running late. We also have our hometown State representative, 
Debby Sanderson, from the Florida House of Representatives, 
also Chairman of the Appropriations Committee, which is no 
lightweight area, I can tell you that. We have got our new 
sheriff--not new any more--Ken Jenne, a very old friend of 
ours. Ken and I have worked together on everything from the 
Charter Commission through all the positions that he has held. 
If he will come forward. And Judge Kathleen Kearney whose name 
has already been mentioned this morning. She will be leaving us 
and leaving the Seventh Judicial Circuit of Florida for 
Tallahassee where she will be taking over tremendous 
responsibility under the Bush administration. We have the 
written testimony--if we do not, we will be getting it and 
putting the testimony in the record. If the witnesses would 
proceed as they see fit, if you wish to summarize--we are going 
to try to move the hearing along with a 5-minute rule. If it 
runs a little bit over, I cannot see anybody at this table that 
I would put the gavel on. So proceed as you wish.
    Debby.

 STATEMENT OF HON. DEBBY P. SANDERSON, FLORIDA STATE HOUSE OF 
                        REPRESENTATIVES

    Ms. Sanderson. Thank you, Congressman Shaw. It is a 
pleasure to be here this morning. I wish it were a happier 
subject. It is one that we struggle with in the legislature and 
certainly here at the district level.
    I want to mention that appropriations have increased 
significantly over the last 7 years. The legislature 
appropriated this year the largest amount of resources in 
years. It was an increase of $75 million and 212 positions. Now 
that is statewide.
    In the fall of 1997 there was a surge in the number of 
children placed in out-of-home care. This surge was not 
anticipated in the 1998 Budget Appropriations Act. We do not 
have a good child welfare information system and we are working 
on one. It is a very, very expensive situation. In Tallahassee 
it is called SACWIS, Statewide Automated Child Welfare 
Information Systems--that is the acronym--which is being 
developed. It is going to be a couple of more years before it 
is up. This may be one reason the State does not have, and is 
not able to react as soon as we would really like to because we 
do not have some of the information we really need. The 
allocation methodology may need to be changed. This is 
something, as you know as a Congressman, is politically very 
sensitive when you try to take dollars from one district or 
from one State to another.
    Management decisions have been lacking at times. The 
district structure does not allow the department to correct 
problems very easily. The State is now adjusting to the Federal 
Adoption and Safe Families Act of 1997, which I think was a 
very good piece of legislation, but it has imposed certain 
restrictions and constraints on us.
    We passed State legislation this past session to implement 
those Federal requirements. It calls for the safety and health 
of children as a paramount concern in decisionmaking in all 
stages of the proceedings. It requires all children in the 
dependency court system to have a permanency planning review 
hearing within 1 year from the date of the out-of-home 
placement. It provides additional grounds for expediting 
termination of parental rights in certain circumstances. This 
is an area that really, really needs to be worked on. We have 
many children languishing in the system today that the parents' 
rights are not terminated. They are not complying with any of 
the court orders and really have lost the ability to be good 
parents and we need to get these children placed. The 
legislature will have an opportunity to address these changes 
budgetarily this upcoming session which starts March 2, 1999.
    Privatization of the child welfare system may bring many 
challenges and unknown resource demands. This is a massive 
undertaking by the department as directed by the legislation of 
1998. Sadly, children are going to die regardless of how many 
resources the State may put into these programs. As I have 
mentioned, we have had significant budget increases, and where 
they affect District 10, of that, 70--let us see, of the 212 
FTEs, full-time equivalents, District 10 has received 28 
percent of those. These are new people coming on board child 
protective, which is 48.5 of the 172 positions, new counselors, 
and 38 percent, which are 8 of the 24 supervisor positions.
    Investigations have increased by more than 15 percent since 
1993. The number of family builders--the number served by the 
Family Builders Program, which is an intervention program that 
we have tried, have increased over 152 percent over the last 5 
years. In District 10, the increase was 149 percent. So they 
are utilizing it, but still it is obviously not the total 
answer.
    The length of stay has been shortened from 22.4 to 19.4 
months in care. Adoption placements statewide have increased by 
over 44 percent since 1990, which I think is a good sign, but 
we need to step that up. In District 10, the rate of children 
entering adoptive home, supervision for 1,000 maltreated 
children went from 10.8 in 1994 to 18.3 in 1997-98. That's a 
69-percent increase in just 4 years.
    In 1998, a review of 53 foster homes in District 10 chosen 
because of overcrowding, abuse reports or concerns by the 
judges, the guardian ad litems or department staff indicated 
that only 4 percent were unacceptable with regard to safety, 
cleanliness, and maintenance. Fourteen were unacceptable 
because of overcrowding. I think 14 percent is awfully high. 
Children appear to be cared for in all the homes. The results 
were even better in a similar review of 50 homes just 
completed.
    The budget that I chair and have the responsibility of 
chairing is $12.6 billion. It is tremendous, it is the largest 
part of the Florida budget. There are so many demands, Medicaid 
has grown tremendously in this State. The Medicaid serves over 
10 percent of the State's population. So in other words, a 
tremendous number. Since 1996 expenditures have risen more than 
574 percent and the number of individuals covered has increased 
by 180 percent. In 1996, the average cost per client in the 
Medicaid Program has increased from $2,215 to $4,530. That is 
an average. In the absence of Federal reform, the State is 
likely to face continued growth in Medicaid expenditures. We 
are drowning in this and really need some help on the Federal 
level, which you have been very helpful with in the past year 
with the budget reconciliation.
    Infrastructure and structured management determines the 
success of any program. We need to reallocate existing foster 
care dollars. For instance, the population at risk versus the 
reported number is very difficult, particularly without SACWIS 
up and running. The number of cases versus the number reported 
are what we need to base this on. It is very possible that some 
of the children in this district were misplaced in more 
expensive foster care, therapeutic homes versus regular foster 
care because of lack of slots. It is a very slot-driven 
situation that we have.
    Some management decisions have been made by other than the 
legislature, such as those made by local district attorneys. I 
am not casting aspersions on any specific district attorney, 
but they have latitude of moving their budgets a little bit 
here and there. So there are some things--Federal lawsuits that 
we have just been pounded with are also a problem and that is a 
concern that I have with this new lawsuit that has been placed 
on us. Do we really want the Federal courts running our foster 
care system?
    We have no information on the length of stay by district 
and by category of foster care, only the length of stay over 
all. That needs to be much more specific. We need to find out 
what is driving an increase in the caseload and causing it to 
spike so appreciably.
    The Federal adoption legislation that you were so key and 
responsible on helping to pass requires emphasis on the best 
interest of the child first and that 12-month planning versus 
18 months. I know that Judge Kearney felt that 12 months would 
be sufficient to do that and she was comfortable with that.
    My last comment is that the birth parents are the ones that 
are really responsible for these children and something has got 
to be done to have parents realize what a treasure children 
are. I was never blessed with any of my own, but it gave me the 
opportunity to put my energies for children other than my own. 
It is not the foster parents' responsibility, it is the birth 
parents' responsibility, and that has somehow got to be driven 
home. I do not know. We cannot do it legislatively. How we can 
make parents more responsible, not to abuse their children, to 
take care of them, love them and nurture them? I know we are 
trying with many intervention programs and hope to be more 
successful as we go on. This is an enormous program and it 
takes everyone in this room and everyone outside of this room 
to solve it.
    Thank you for the opportunity.
    Chairman Shaw. Sheriff Jenne.

 STATEMENT OF HON. KEN JENNE, SHERIFF, BROWARD COUNTY, FLORIDA

    Sheriff Jenne. Mr. Chairman, I want to thank you and Mr. 
English for having the foresight to schedule this hearing in 
Broward County and address what clearly has become a crisis in 
our community. I do want to talk a little bit different than 
probably some of your other speakers. I want to speak about the 
role of law enforcement, specifically the Broward Sheriff's 
Office, can play in protecting our children.
    I want you to know that I am thankful for those who gave us 
a very strong wakeup call that we all needed. It was all of our 
responsibilities to provide a safety net for society's most 
vulnerable. There are clearly right now some gaping holes in 
that net when it comes to our children. Unfortunately, there is 
no quick and easy solution to this problem, no Band-Aid that 
can stop the bleeding at this moment, but we all must prepare 
together for major surgery of the system.
    One way the Sheriff's Office can help repair the system is 
by assuming the responsibility of protective investigations, 
not the placements but the investigations. This is right now 
the responsibility of the State Department of Children and 
Family Services. These investigations are the ones that 
determine whether the child should be removed from an unsafe 
environment and whether any criminal activity is occurring. So 
we are just talking about protective investigations right now.
    Let me take a moment to address what currently happens when 
an investigator calls for help. The Federal law is clear where 
the investigator's duty lies. You mentioned this earlier, Mr. 
Chairman, in your remarks, but I think it warrants reiteration. 
The duty of the investigator is to do whatever is in the best 
interest of the child. The child's welfare is, and will 
continue to be, of paramount importance to an investigator.
    What will be emphasized in any training that takes place, 
should we assume those responsibilities? The first thing I 
think law enforcement ought to do upon receiving a call from an 
800 hotline is extensive background on the people who live in 
the household. Have there been prior calls to the hotline from 
this household? Who lives in the house? Are there criminal 
backgrounds? By conducting this background research, we would 
arm every investigator with crucial information he or she needs 
to make an informed decision that is in the best interest of 
the child. That is not being done now.
    Other steps would be to include providing investigators 
with the tools they need to perform these jobs effectively. It 
is hard to imagine, but most of these--the work of these 
investigators are outside of the office, yet they do not have 
portable computers; they do not have cell telephones; they do 
not have communication radios. They spend every moment of their 
day in their cars transporting children, yet there are no 
guarantees of safety and reliability because the cars are their 
own personal vehicles. There is no accountability regarding 
automobile insurance when they are transporting these kids in 
the State's custody. The Sheriff's Office will provide 
inexpensive types of vehicles to these investigators. We would 
also enhance the training requirements for the investigators by 
adding a 40-hour investigator course on topics such as child 
interview techniques, case management preparation and an 
overview of the criminal statutes and evidence of collection 
scenes--crime scenes.
    Mr. Chairman and Mr. English, I want to emphasize to you 
that that type of training is absolutely essential. How to 
interview a child is much different than how to interview an 
adult. How to take evidence is so important, yet we do not have 
it today. I believe that this is not only an appropriate role 
for a law enforcement agency, but I think it is a necessary one 
in today's society, not just here in Broward County. Police 
officers and sheriff's deputies are clearly equipped, trained, 
and experienced to perform these functions. Our infrastructure 
lends itself to doing them thoroughly and efficiently. We have 
the tools by nature that are at our disposal that the 
Department of Children and Families, (DCF) does not have. 
Perhaps more important is the level of responsibility and 
accountability that we demand of our investigators. It is the 
same level of accountability we demand throughout the Sheriff's 
Office for everything from crime rates to clearance rates and 
to community outreach. Our employees are responsible for the 
public safety of 1.5 million people in this county. It is time 
we demand more from those individuals who are explicitly 
responsible for protecting the welfare of our children.
    This office, and I think other law enforcement agencies, 
sheriffs' offices throughout this State are willing to do it 
and the structure can be put into place quickly. But to do this 
job, we have to tell you it will cost more money for those 
computers, for those cell telephones, for better training. We 
estimate that it will take approximately $2 million more 
annually to conduct those protective investigations. I suspect 
you will find this to be a common theme throughout the State, 
particularly in the urban centers where caseloads are 
overwhelming and the need for proficient reliable investigative 
work is high.
    Our children, like all of us, need to live in a safe, 
healthy environment and we should say to all of us, shame on us 
for letting their welfare become a high risk situation that 
takes a grand jury report to remind us this should be our 
highest priority. It should remain our highest priority year in 
and year out, not just when the news media bring a rash of 
tragedies to our attention.
    In closing, I want to say once again, Mr. Chairman, to you 
and to Mr. English, thank you for bringing this Subcommittee 
here. I am sure, and I know it is true that our needs are 
great, but our resolve is also great to tackle this problem. I 
want to say once again how proud we are that you are here and 
leading this fight for us. Thank you.
    [The prepared statement follows:]

Statement of Hon. Ken Jenne, Sheriff, Broward County, Florida

    First, I'd like to thank Congressman Shaw and the other 
distinguished members of this subcommittee for having the 
foresight to schedule this hearing in Broward County and 
address a clearly pressing crisis in our community.
    I want to talk with you today about the role that law 
enforcement--and specifically the Broward Sheriff's Office--can 
play in protecting our children.
    And I want you to know I am thankful to those who gave us 
all the wake-up call we needed. It is all of our 
responsibilities to provide a safety net for society's most 
vulnerable. And there are clearly some gaping holes in that net 
when it comes to our children.
    Unfortunately, there is no quick and easy solution, no 
band-aid that can stop the bleeding at this moment. But we all 
must prepare, together, for major surgery of this system.
    One way the Broward Sheriff's Office can help repair the 
system is by assuming the responsibility of protective 
investigations, a responsibility currently under the state's 
Department of Children and Families. These are investigations 
that determine whether or not a child should be removed from an 
unsafe environment, and whether any criminal activity is 
occurring.
    Let me take a moment to address what currently happens when 
an investigator responds to a call for help. The federal law is 
very clear where the investigator's duty lies (and Congressman 
Shaw mentioned this in his opening remarks, but I think it 
warrants reiteration).
    The duty of the investigator is to do whatever is in the 
best interest of the child. The child's welfare is and will 
continue to be of paramount importance to an investigator. That 
will be emphasized in any training that takes place, should we 
assume these responsibilities.
    The first thing we would do upon receiving a call from the 
800 hot-line is extensive background on the people who live in 
that household:
    <bullet> have there been prior calls to the hotline 
regarding this household?
    <bullet> who lives in the house?
    <bullet> do they have criminal backgrounds?
    By conducting this background research, we would arm every 
investigator with crucial information he or she needs to make 
an informed decision about what's best for the child.
    This is NOT being done now.
    Other steps we would take include providing investigators 
with the tools they need to perform these jobs effectively.
    The vast majority of their work is done outside the office, 
yet they don't have portable computers, cell phones or 
communication radios. They spend all day in their cars and 
often transport children, yet there are no guarantees on the 
safety and reliability of their personal vehicles, and there is 
no accountability regarding automobile insurance when we are 
transporting children in the state's custody! The Sheriff's 
Office would provide inexpensive unmarked vehicles to each 
investigator.
    We would also enhance the training requirements for 
investigators by adding a forty hour investigator course on 
topics such as child interview techniques, case management and 
preparation, an overview of criminal statutes, and evidence 
collection at crime scenes.
    I believe this is not only an appropriate role for law 
enforcement agency, but it may be necessary for law enforcement 
to perform these duties. And not just here in Broward County. 
Police officers and sheriff's deputies are clearly equipped, 
trained and experienced to perform these functions. Our 
infrastructure lends itself to doing them thoroughly and 
efficiently. We have tools at our disposal that DCF does not 
have.
    Perhaps most important is the level of responsibility and 
accountability that we will demand of the investigators. It is 
the same level of accountability we demand throughout the 
Sheriff's Office for everything from crime rates, to clearance 
rates, to community outreach.
    The Broward Sheriff's Office employees are responsible for 
the safety of a million and half people in this county, and we 
hold them to very high standards of performance. It's time we 
demand more from those individuals who are explicitly 
responsible for protecting the welfare of our children. The 
Sheriff's Office is willing to do it, and the structure can be 
put in place quickly.
    But to do this job right will cost more money than is 
currently budgeted. We estimate it will take about $2 million 
more annually for us to conduct protective investigations the 
way they should be conducted. I suspect you'll find this to be 
a common theme throughout the state, particularly in urban 
centers where the caseloads are overwhelming and the need for 
proficient, reliable investigative work is high.
    Our children--like all of us--need to live in safe, healthy 
environments. Shame on us for letting their welfare become such 
a high risk situation that it takes a grand jury report to 
remind us this should be our highest priority. And it should 
remain our highest priority year in and year out--not just when 
the news media brings a rash of tragedies to our attention.
    In closing, I would like to once again thank this 
subcommittee for coming to South Florida. It is true that our 
needs are great, but so is our resolve to tackle this problem. 
We need your continued help and participation. Thank you.
      

                                <F-dash>

    Chairman Shaw. Thank you, Sheriff.
    Ms. Kearney.

   STATEMENT OF HON. KATHLEEN A. KEARNEY, JUDGE, SEVENTEENTH 
  JUDICIAL CIRCUIT OF FLORIDA; AND CHAIR, FLORIDA DEPENDENCY 
                   COURT IMPROVEMENT PROGRAM

    Judge Kearney. Good morning, Chairman Shaw and good 
morning, Mr. English. I want to thank you very much for the 
opportunity to appear here today with you. First let me 
indicate that I am here as a sitting circuit court judge at 
this moment. My testimony will be in light of that current 
position. I also chair the Florida Dependency Court Improvement 
Program which your Subcommittee assessed and funded. So I am 
here also in that capacity as chair of the Dependency Court 
Improvement Initiative here in the State of Florida.
    Florida's child protection system and Broward County's in 
particular is in a state of crisis. No one can deny that. 
Countless children at this time are left in abusive homes on a 
daily basis due to inadequate risk assessment and investigation 
being done by the department. Sadly, countless more children 
are also abused and neglected in our foster care system here as 
a result of overcrowding and problems within that system. The 
purpose of this hearing though, as I understand it, is not to 
debate the genesis of that crisis or the nature of that crisis, 
but to provide you with potential solutions at the Federal 
level to assist us in our work on behalf of protecting 
children; therefore, I would like to limit my remarks this 
morning to three specific recommendations that can be done at 
the Federal level to assist us here at the State level.
    The first remark that I have is that it is imperative that 
you fully implement the Adoption and Safe Families Act of 1997. 
This act totally revolutionized the national approach to child 
welfare and protection by putting the health and safety of 
children as the paramount concern, and also determining whether 
reasonable efforts have been made by the government before 
removing a child, reclassifying, redefining what reasonable 
effort is, and also reasonable effort at the time of 
reunification as that decision is made by the courts. Florida 
was the first State in the Nation to pass into law the Adoption 
and Safe Families Act when our legislature enacted in May of 
this year the Dependency Court Improvement Initiative that 
included all of the Adoption and Safe Families Act 
requirements. I would like to publicly thank Representative 
Sanderson, without whose leadership and initiative the 
Dependency Court Improvement legislation would not have passed, 
and it would have caused great harm and disservice to the 
children of Florida had that not taken place. Unfortunately 
though, the State of Florida has not implemented the 
recommendations of Adoption and Safe Families and, at this 
time, I have great concern about that.
    The Adoption and Safe Families Act was passed in November 
1997, so all States were on notice that at the first 
legislative session, they needed to pass into law the Federal 
requirement. So we have known since November that proper 
training on the ramifications of the new law needed to be done. 
We have known since May 1 when the legislation was passed here 
in the State of Florida that it was in fact enacted with an 
enactment date of October 1.
    I am very concerned at this time on behalf of the judiciary 
because the training that has been provided within the 
department to fully implement the act is woefully inadequate. 
It is my understanding that there has been a 1-hour videotape 
that has been shown to representatives of the department--and 
that is it as far as fully being able to be trained.
    I have also received and have just reviewed the draft of 
the professional development centers. They are the entity 
responsible for training here in Florida of all caseworkers and 
retraining of existing caseworkers. I received a draft of their 
initial report for 1998, there is not one mention in that over 
50-page report of the Adoption and Safe Families Act, nor is 
there a mention of the Dependency Court Improvement Act, which 
enacted it here in Florida. So I am very concerned that the 
principal training arm at this time has not trained and is not 
at this point prepared to train on the complete paradigm shift 
from what had been a family preservation model at all cost, to 
now the health and safety of children as the paramount concern. 
And I believe that first and foremost that you must require 
that the States provide to the Federal Government a report on 
the training initiative and a report on what the States have 
done to fully implement and adopt Adoption and Safe Families. 
Without that, I fear that the States will not effectively train 
their workers on this very vital and important mission and 
function. That would be my first recommendation.
    The second recommendation I have for you is to allow access 
to the National Crime Information Center computer to the 
Department of Children and Families in Florida. Child abuse 
unfortunately is never limited to one State or one 
jurisdiction. Given the mobility of today's population, it is 
imperative that Congress enact legislation that gives State 
child protection agencies access to the NCIC. Right now, if I 
were to go out and conduct an investigation here in this 
community, unless I had a friend in law enforcement who through 
informal channels might be able to give me an NCIC report or I 
sent away to the Federal Bureau of Investigation to get it, 
which would take months, I will not be able to tell you if 
there is any other criminal history outside the State of 
Florida of any of the individuals in the home, including the 
alleged perpetrator. To force an investigator to investigate 
without that valuable tool is unconscionable. Florida has 
enacted the required legislation that would give us access to 
the NCIC, but it does require congressional approval at this 
time. I would strongly encourage you to see to it that that is 
done.
    The third recommendation that I have this morning deals 
with the educational services that are given to children, both 
in shelter care and in foster care. Children who are placed in 
out-of-home care, whether that be with a relative, whether that 
be in shelter placement and ultimately in foster care if it is 
not safe to send them home, are frequently moved from school to 
school as they are moved from foster home to foster home. The 
teachers that initially have that child in class are often not 
consulted in any way about the child's special needs. Their 
records frequently do not follow them from school to school. 
There is no requirement that encourages the staff from the 
school district to have input in the case planning function of 
the Department of Children and Families. I would strongly 
encourage you to look at changing or perhaps amending the 
Individual Disabilities Education Act, known as IDEA, to 
mandate that school districts and child protection agencies 
receiving Federal funds identify children that have been placed 
in shelter and foster care, share information pertaining to 
those children with one another, so that each child's 
individual needs can be more fully assessed and met. I would 
also encourage you to require that school personnel be 
consulted and provide input on the educational needs of the 
child in the child's case plan.
    In closing, let me stress my intense gratitude to 
Representative Shaw for his leadership on a national level in 
making possible Adoption and Safe Families. Without your 
leadership, sir, it would not have happened and you will save 
millions of children because of your efforts.
    Thank you so much.
    [The prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T0952.027
    
    [GRAPHIC] [TIFF OMITTED] T0952.028
    
    [GRAPHIC] [TIFF OMITTED] T0952.029
    
      

                                <F-dash>

    Chairman Shaw. Thank you, Judge, and on behalf of the 
Committee, I would like to congratulate you on your impending 
appointment as Secretary of the Florida Department of Children 
and Families. We certainly look forward to great things from 
you.
    And now our final witness from this panel, who has just now 
flown in, I understand running a little bit late. We very much 
appreciate your efforts in getting here. Linda Radigan is the 
Assistant Secretary for Family Safety and Preservation of the 
Florida Department of Children and Families. Welcome. Thank you 
for being here.

  STATEMENT OF LINDA F. RADIGAN, ASSISTANT SECRETARY, FAMILY 
  SAFETY AND PRESERVATION, FLORIDA DEPARTMENT OF CHILDREN AND 
                            FAMILIES

    Ms. Radigan. Thank you, Chairman Shaw and Mr. English, for 
coming here to hold this hearing. This is very helpful to the 
Department of Children and Families, who rarely has the 
opportunity to travel to Washington to provide input on the 
very important and critical Federal funds that you provide to 
the State of Florida.
    Of the over $400 million that is spent in Florida each year 
on the child protection system, just under half of that is from 
our Federal funding sources. You are clearly a primary partner 
in our protection of vulnerable children and families.
    You have heard a lot of data already, and I will reiterate 
just a few points. In the package that I gave you is some 
statewide data as well as data on the three counties in south 
Florida, District 9, District 10, and District 11.
    Overall, the child population in Florida has grown by 6 
percent over the past 5-year period. During that same 
timeframe, the number of child abuse and neglect reports 
investigated by the State of Florida grew by 15 percent. Over 
the next 5 years, we are expecting both the child population 
and the number of children reported, who will require a child 
abuse investigation, to continue to increase by another 9 
percent.
    From 1994 through 1997, the number of children in Florida's 
foster care system remained fairly constant even though the 
child population and the reporting rate significantly 
increased. This is largely due to an infusion of resources from 
the Florida legislature, supported by our Federal-matching 
sources, to increase the number of foster care and adoption 
staff that provide the critical support and services that these 
children and families need.
    As you have already heard, during that timeframe, the 
number of children who were successfully adopted increased 
quite dramatically and that had a large impact obviously on the 
number of children in foster care. The length of time for 
Florida's children in foster care decreased by 22 percent 
during those years, reaching a low of 17 months last year. The 
State also invested in family builder programs over the past 4 
years, which did have for many children an avoidance of care in 
the foster care system.
    The passage of the Federal Adoption and Safe Families Act 
was landmark legislation in terms of a renewed emphasis on 
child safety as a priority of child welfare and a renewed 
emphasis on achieving permanency more quickly for those 
children who live in foster care. As the result of the 
Dependency Court Improvement Project in this State, as was 
mentioned by Judge Kearney, Florida was in a position to move 
forward and adopt the Federal changes in its State law this 
past year. We appreciate the continued funding of the 
Dependency Court Improvement Project. That has resulted in 
linkages at the local level and statewide level that are very 
critical in improving the way in which we work together on 
behalf of children and families.
    Last year, Florida saw an increase of 14 percent in its 
children in out-of-home care, and we believe that it is the 
result of a number of factors coming together at that point in 
time. We believe that the resources provided by the legislature 
in terms of additional foster care and adoption counselors have 
reached their limit in terms of the number of cases they are 
able to handle and process as well as the number of attorneys. 
The department will be working very closely with the 
legislature in the coming session to increase the number of 
professional counselors, foster care counselors, adoption 
counselors, dependency attorneys and judges in order to meet 
the increased expectations for judicial oversight and quicker 
permanency resolution for children in care. Those manpower 
resources are critical to making this system work effectively 
and quickly on behalf of children and families.
    With respect to our funding stream, with the tremendous 
growth in Florida's child population and the new demands of 
both our State law and the Federal law for judicial oversight, 
better case planning, better resolution, the ongoing 
entitlement nature of the Federal IV-E Program is vital to the 
further growth that Florida is anticipating. We also would 
welcome any additional efforts to simplify the regulations and 
allow more flexibility with the way in which we expend IV-E 
dollars for child abuse victims, so that not just those victims 
who go into foster care, but those child victims who could be 
diverted from foster care, have the opportunity to be served 
with IV-E dollars. When children can be safely diverted from 
out-of-home care, we would like to see the ability to use IV-E 
dollars to accomplish that.
    The current IV-E waiver process is a very cumbersome one 
and we would recommend that the waiver process within the Title 
IV-E Program be more standard and routine as it is in the 
Medicaid Program where there are certain types of options that 
States can adopt. It takes less time and there is less ongoing 
paperwork and reporting associated with Medicaid waivers. At 
this point, only States who come up with a totally new and 
different idea for a IV-E waiver are eligible to receive that 
waiver. And there are many good waivers already in effect that 
we would like to utilize.
    The Social Services Block Grant is one important funding 
source for Florida's child protection system, about $60 million 
of our current system is Social Services Block Grant money. The 
reduction over the past 3 years of more than $11 million in 
that particular block grant program has been a serious blow to 
our child protection system, and any further reductions would 
be a problem. Even in the context of some of the increases in 
the Title IV-E Program in terms of the part A funding for 
family preservation programs, they have not been enough to 
offset the Social Services Block Grant reductions.
    A second major reform effort underway in Florida's child 
protection system, as you have heard mentioned earlier, is the 
intent of the Florida legislature to move toward the 
privatization of all services in the child protection system, 
ranging from caseworkers involved with providing services and 
supports to families to all foster care and adoption services. 
This is a critically important opportunity to revitalize the 
way in which communities are involved in the child protection 
system and to revitalize the way in which services are 
conceptualized and provided. It reflects a major shift in this 
State from the government being a provider of the service, to 
the government becoming a better purchaser of services.
    The whole Title IV-E Program, when it was originally built 
was built for State-operated systems. The regulations and the 
claiming mechanisms are not well-suited to a government agency 
that is now purchasing these services from the private sector. 
While we certainly expect that the Federal Government would 
hold our State agency responsible for the integrity of the 
child protection services that we are purchasing, we very much 
need major changes that would support our purchase of services 
funded by IV-E from the private sector. There are actually many 
disincentives in the current IV-E regulations for State 
agencies moving in this direction. For example, the training 
funding under the IV-E Program provides a 75-percent match for 
training of employees who are State employees, but will only 
provide a 50-percent match for employees who are providing the 
same services but who work in the private sector.
    The current regulations are still quite extensive in terms 
of documentation that needs to be provided. It is our belief 
that given the nature of this work, the nature of our own State 
law, significant documentation requirements will always be 
needed when we are taking cases to court and potentially 
terminating parental rights. So we believe that this needs to 
remain a State level responsibility and burden with the Federal 
Government focusing more on the achievement of performance 
outcomes in the child protection system. And we welcome the 
efforts in the new ASFA legislation to develop performance 
outcomes and we are anxious to work with you on the 
establishment and implementation of a funding stream that truly 
requires States to achieve permanency. At this point, the--and 
I hate to confess this--but the Federal funding stream does not 
give us enough of a strong incentive to achieve permanency. It 
is too open-ended, and we actually receive Federal funding for 
children in foster care for too long. It should be expected 
that what you buy and what we buy at the State level from our 
districts is permanency resolution, not raising children in 
foster care.
    We are very appreciative of any opportunities to make 
further changes in the current Title IV-E Program and would be 
very happy to offer any ongoing assistance that we can in this 
endeavor.
    Thank you.
    [The prepared statement follows:]

Statement of Linda F. Radigan, Assistant Secretary, Family Safety and 
Preservation, Florida Department of Children and Families

    It is with pleasure that I am here today to provide 
testimony on Florida's Child Protection System, and the 
critically important partnership that we have with the federal 
government. I would like to begin by providing some data on 
major trends in Florida's system, as well as trends in South 
Florida in the counties of Palm Beach, Broward, Dade and 
Monroe.
    The overall child population in Florida has grown by 6 
percent over the past five years. In Palm Beach, it has grown 
by 8 percent; in Broward County by 11 percent, and in Monroe 
and Dade Counties by 7 percent. Over the next five years, the 
child population in these south Florida counties is projected 
to increase by another 9 percent.
    The per capita reporting rate per one thousand children in 
Florida has remained fairly constant over the past five years, 
close to the 1997-98 rate of 31.6 reports of child abuse or 
neglect for every 1000 children in the general population. 
Although the reporting rates per capita are much lower than the 
statewide average in South Florida--last year they ranged from 
17.5 in Dade/Monroe to 24.3 in Palm Beach County--there has 
still been a dramatic increase in the number of child abuse and 
neglect reports received and investigated each year. In Palm 
Beach County, reports investigated have increased by 15 percent 
from FY 93-94 through FY 97-98; in Broward County by 14 
percent, and in Monroe and Dade Counties by 3 percent. Over the 
next five years, child abuse reports in these south Florida 
counties are projected to increase by another 9 percent.
    From 1994 through 1997, the total number of children in 
Florida's foster care system remained fairly constant, even as 
the child population increased. This is because the state 
invested significant resources in foster care and adoption 
counselors. For those children who were in the foster care 
system, we have seen significant results achieving permanency 
goals. The number of children adopted increased by 17 percent. 
Each of the south Florida counties achieved similar increases 
in the number of foster children adopted over the last few 
years. Concomitantly, the length of time that children spend in 
foster care has been decreasing. The median length of stay 
decreased from 22.4 months in 1991 to 17.5 months in 1997, a 22 
percent decrease. The state also invested in intensive in-home 
services, and many children who would have otherwise been 
placed in out-of-home care were diverted.
    The passage of the federal Adoption and Safe Families Act 
of 1997 (ASFA) was landmark legislation in terms of a renewed 
emphasis on child safety as a first priority of child welfare, 
and achieving permanency, quickly, for children placed in out-
of-home care. Florida, after two years of intensive research 
and analysis as the result of the federally funded grant known 
as ``The Dependency Court Improvement Project,'' had prepared a 
major rewrite of Florida's child protection statute. All of the 
required ASFA changes were incorporated into Florida's 
statutory rewrite. The renewed emphasis on child safety is 
clearly reflected in the increased number of children entering 
out-of-home care during the last fiscal year, an increase of 14 
percent.
    The Adoption and Safe Families Act of 1997, as well as 
Florida's own recent statutory changes, clearly anticipate 
increased judicial oversight of all cases. The time frames for 
permanency hearings have been shortened overall, and Florida 
now expects children placed with relative caretakers to receive 
the same judicial oversight and permanency resolution. With the 
greater intensity of casework and services needed, as well as 
shorter timeframes to achieve permanency, the Florida 
legislature in the coming session will be asked for significant 
resource increases to support the need for additional judges, 
lawyers, caseworkers, foster homes, and foster payments. 
Ongoing and additional federal support will be needed.
    With the tremendous new demands and growth that Florida 
will continue to experience, it is critical that the 
entitlement nature of the Title IV-E funding be maintained. 
That guarantee is vital to the stability of child protection as 
we continue to build on our resources. However, as you review 
the issues surrounding child welfare, we would welcome any 
federal effort to simplify the regulations and allow more 
flexibility to spend IV-E dollars for all child abuse victims, 
not just those child victims who go into foster care, which in 
Florida last year was just 5.6 percent. There must be 
flexibility and incentives for diverting children from out-of-
home care when it is an appropriate and safe option. The 
current IV-E waiver process is too cumbersome.
    Unfortunately, the Social Services Block Grant, a primary 
source of child protection funding, has been reduced twice in 
the past three years, a reduction of more than $11 million in 
child protection. More Social Services Block Grant reductions 
to the Florida child protection system are on the horizon 
should Congress continue the current trend. The Florida 
legislature did not provide any state general revenue to offset 
these losses. The impact of these reductions is not fully 
known, however, any funding reduction in the child protection 
system is significant, particularly when the child population 
and incidence of family violence is increasing.
    The second major reform underway in Florida is the intent 
of the 1998 legislature to privatize all of the services in the 
child protection system, ranging from caseworkers providing 
voluntary services to foster care and adoption services. This 
is a critically important initiative to rebuild local 
communities' understanding, knowledge and ownership of their 
children and families. The privatization of child welfare 
reflects a major change in the state government's role, a shift 
away from direct service provision to a role of contract 
negotiation, monitoring of outcomes, and quality assurance 
functions.
    The Title IV-E program was designed for state-operated 
systems. The regulations and claiming mechanisms are poorly 
suited for a child protection system that is operated by 
private agencies. While it is expected that the federal 
government would hold the state agency responsible for the 
integrity of child protection services, major changes must be 
made in the regulations to allow for the provision of services 
and claiming of federal funds by the private sector, as well as 
government. Disincentives for privatization now exist in 
federal regulations. For example, private provider staff 
training in child protection earns a 50-percent federal match, 
while state staff training earns 75-percent. This requires more 
state support to fund the training system for non-state 
providers. This will require a major overhaul of current 
regulations. The current regulations are still too extensive. 
Title IV-E funds must be more flexible, such as with Titles IV-
B and the Social Services Block Grant. There is a need to focus 
more on the achievement of permanency outcomes, than the reams 
of documentation that are now required by the federal 
government. We will not possibly achieve permanency and meet 
the requirements of our own state law without proper and 
extensive documentation, but this needs to remain a state-level 
responsibility and burden.
    The Florida Department of Children and Families will be 
most appreciative of any opportunities to assist you, 
Congressman Shaw, and your committee members in any revisions 
to the current Title IV-E program that you may consider in the 
next Congress. Thank you for your efforts on behalf of 
Florida's children and this opportunity to provide testimony 
today.

    [The attachments are being retained in the Committee 
files.]
      

                                <F-dash>


[GRAPHIC] [TIFF OMITTED] T0952.022

[GRAPHIC] [TIFF OMITTED] T0952.023

[GRAPHIC] [TIFF OMITTED] T0952.024

[GRAPHIC] [TIFF OMITTED] T0952.025

[GRAPHIC] [TIFF OMITTED] T0952.026

      

                                <F-dash>

    Chairman Shaw. Thank you.
    Mr. English.
    Mr. English. Thank you, Mr. Chairman.
    This has been a very useful panel, and let me start with 
Representative Sanderson.
    I noted in your testimony, you commented on the efficacy of 
putting cases into court, recognizing that there has been a lot 
of litigation filed against State and local child welfare 
agencies. And I would like you to expand on your testimony, and 
while you do that, Mr. Chairman, if it is appropriate, I would 
like to have included in the record a study of the outcomes of 
child-welfare-related lawsuits conducted for the Subcommittee 
by CRS and just recently concluded, if I could have that done.
    Chairman Shaw. Without objection.
    [The information was not available at the time of 
printing.]
    Mr. English. Representative Sanderson.
    Ms. Sanderson. Did you want me to address a specific 
lawsuit just as an example?
    Mr. English. That would be terrific, from your experience.
    Ms. Sanderson. OK, we are involved in one right now that is 
ongoing. Florida chose in 1996 to abolish that category and go 
to a waiver in order to serve additional individuals who needed 
to be served in this basic category. We knew that there is the 
ability to offer a less-expensive option for the State to 
provide for these people, more than adequate, and we chose 
that. There was not a plan that was ready to be implemented, 
and I think that's where probably the biggest portion of this 
came. But the providers--because it is a very provider, the 
whole system is very provider driven--we ended up with a 
situation in Federal court where the providers took us to 
court. We thought they were going to sharpen their pencils, 
they did not.
    They have been ongoing and being paid that same amount of 
dollars year after year, probably $40 million more than when we 
made that initial decision, so we are still tied up in the 
court. That could have a $200 million impact on the State of 
Florida, just in that one category. That is the type of 
situation I am talking about.
    Mr. English. Do you think, in general, bouncing these sorts 
of cases into court actually improves the child welfare system 
or does it simply add complications to an already balkanized 
system?
    Ms. Sanderson. Well, I think you probably said it best in 
your last statement. Yes, it does tremendously complicate. It 
also still focuses the dollars on the existing people being 
served and it does not get to the waiting list. There was a 
fairly bogus waiting list that was being thrown at us, as to 
the numbers of people that needed to be served, and when that 
was toned down, it was appreciably less. Those were the type of 
people we were trying to meet, because if we are going to give 
Cadillac service to 2,000 or 2,100 and a couple thousand are 
out there that are not receiving any services--there are many 
people whose families have been raising these young people on 
their own and never even thought of coming to the State for 
assistance of any type. We would like to be able to allow them 
to do that and perhaps go to some kind of a voucher system to 
make sure it actually goes to the individual to be served, 
depending on the levels that they need it.
    Mr. English. Thank you. Judge Kearney, you have your work 
cut out for you in the next few years and it must be an 
exciting assignment. As you know, the Federal IV-E Program 
allows the States to claim training expenses as an open-ended 
entitlement with a Federal match of 75 percent. What more needs 
to be done in this area?
    Judge Kearney. I am very involved in training at the 
judicial level, and I think it does take a significant amount 
of local leadership within the State in order to effectuate 
change by training. We will not implement Adoption and Safe 
Families unless every caseworker in the State of Florida is 
effectively trained on its ramifications and its impact. I do 
believe that the funds would be available. We do need to come 
up with a 25-percent match in order to do that, and it is an 
unlimited assignment as far as I can see. But right now, I do 
not see that we have aggressively gone after those training 
funds, nor have we set up an effective training program that 
should have been set up over 6 months ago in order to train 
every caseworker in the State of Florida.
    Chairman Shaw. Would the gentleman yield?
    Mr. English. Certainly.
    Chairman Shaw. Is this what you refer to in your testimony 
as an hour of videotape?
    Judge Kearney. Yes, sir. When you think of the complete and 
total paradigm shift that you did by adopting this statute, 
this legislation, and forcing the States to enact it within 
their first legislative sessions--and Florida's was very quick. 
We started--our Committees were meeting in December, in January 
and February, and then we started session in March. We had 60 
days' worth of sessions and I am telling you, if it were not 
for Debby Sanderson, I do not know how we would have gotten 
that act done, it literally passed the very last day of 
session.
    But even then, we have now had since May 1, complete and 
total knowledge of the fact that Adoption and Safe Families was 
now law in Florida, and there has not been an effective 
training program at all.
    Chairman Shaw. That training money also would be available 
to you, Sheriff, as far as your investigators are concerned, if 
you can come up with the other 25 somewhere.
    Sheriff Jenne. It is interesting, Mr. Chairman, if I may--
and Mr. English, if I may--if there is a 1-hour video training 
plan, we are looking at a 40-hour course before our people get 
in, as a minimum. And I think I wanted to emphasize that to 
you, that we think before--even though our people will have 
more propensity to be trained earlier on in this, that it is 
absolutely essential--and I want to go back to that point I 
made earlier that these investigators have to know how to talk 
to these children. It is not--that is a key element, that they 
know how to marshal the evidence, keep the evidence in check, 
and also be able to make these inquiries. This is a really 
complicated area, and dealing with these children is much more 
difficult--and should be, ought to be much more difficult--than 
it is with adults.
    And going back to Mr. English's point, you really and truly 
need these moneys to do this and to get involved. And if it is 
only an hour video, it is not sufficient.
    Chairman Shaw. If I may continue to impose on your time----
    Mr. English. Surely.
    Chairman Shaw. What is the educational background that 
deputies would have, what is their educational background 
requirement presently?
    Sheriff Jenne. Presently, it is a bachelor's degree. We 
would have either an associate or a bachelor's degree. Frankly, 
Mr. Chairman, I would like to emphasize to you that in this 
type of investigation, sometimes a bachelor's degree can be 
very deceiving. Sometimes people will want to say because one 
has a bachelor's degree, one is qualified to do these 
investigations. The truth is that we believe that 
psychologicals, we believe that polygraphs, we also believe 
experience is the real key to this, and the maturity of the 
individual.
    My experience, as you know--Mr. Chairman, I would not want 
to speak for you, but many times, a bachelor's degree is not an 
indication of maturity or knowledge of a subject, but rather an 
achievement of a particular level of education.
    Chairman Shaw. Pay scale?
    Sheriff Jenne. Pay scale, ours would probably be about 
$8,000 more a year. We think that that is absolutely essential.
    Chairman Shaw. Is it presently around $25,000?
    Sheriff Jenne. Yes, and we are looking at the low thirties, 
yes, Mr. Chairman.
    Chairman Shaw. Debby, you wanted to jump in here, I 
believe.
    Ms. Sanderson. Thank you, Chairman Shaw, I wanted to add 
one thing. In reading the grand jury report, I was very alarmed 
to read that the training, where in the early eighties, the 
emphasis was on the best interest of the child, it then shifted 
in the early nineties back to reunification, and then best 
interest of the child for a number of years now; and yet the 
training is still reunification. And I think that is part of 
the problem we have been experiencing here too, where these 
children have not really been placed appropriately.
    Chairman Shaw. Thank you.
    Mr. English. Judge, that last remark from Representative 
Sanderson leads me to something that was interesting and a 
little disturbing to read in your testimony, and that is, 
``There is little, if any, recognition that the principal 
mission of any federally funded child protection agency is to 
ensure the health and safety of children.'' What other mission 
is being espoused here? Is it family preservation at all cost?
    Ms. Sanderson. Yes, sir, it is. One of the things that has 
been most disturbing to me in over 10 years on the bench 
handling these types of cases--and also my former background is 
a sex-crimes, child-abuse prosecutor with the State Attorney's 
Office here before going on the bench--is to watch over time 
how the department would literally have 5, 10, 15, sometimes I 
have seen as high as 20 referrals to the Department of Children 
and Families before any action is taken on behalf of the child. 
We talk about the gatekeeping function, if you have read the 
grand jury report from Broward County, you will see that what 
appears to have been a gatekeeping function has been resource 
driven, to keep a child in an abusive home rather than to 
remove the child because it is expensive once we remove a 
child. Foster care is expensive, shelter care is expensive. 
Treatment and assessment are expensive. And so, if the child 
can be maintained within the home, and preferably, it appears, 
without services, that was the preferred way to do things. And 
that was what was encouraged. And you will see in the grand 
jury report, some supervisors even telling caseworkers they 
were not to remove children, so that they could keep them 
within the home. It is less expensive.
    Unfortunately, what has happened over time is that by the 
time the cases finally do come to court, the children are so 
damaged, that they have been so abused and so neglected that 
the psychological trauma is so solid, that it takes years' 
worth of intense therapy, which is very expensive, to try to 
correct the problem. And also, many of those children by that 
time are not the adorable 5-year-olds that are readily 
adoptable, but instead, the 13-year-old runaways that are not 
able to be effectively helped. And as a result of that, we have 
thrown away a generation of children because of that.
    So I see that, again, it gets back to the training 
initiative. If you fully train on what the law is, as well as 
risk assessment. On those children that can be safely 
maintained in the home, they should be there, with supportive 
services in place to assist the family. For those children that 
cannot, we should remove them at the earliest opportunity, 
force the family to be accountable as Representative Sanderson 
talked about, to have a partnership with the Department of 
Children and Families, the guardian ad litem program, the 
court, to fully assist that child and the family. But if it is 
not going to work, to stick to the timeframes that you have set 
forth, the timeframes that our Florida Dependency Court 
Improvement Act set forth, and then proceed to termination of 
parental rights to find an appropriate family for that child.
    Mr. English. Mr. Chairman, I have one other brief question, 
if I could be indulged.
    Chairman Shaw. Go ahead.
    Mr. English. For Secretary Radigan--actually I was 
intrigued by your testimony on a number of levels, but in your 
testimony, you specifically mentioned the reduction of Social 
Services Block Grant funds, and as you probably know, this 
block grant is under the jurisdiction of the Ways and Means 
Committee, however, the cuts did not come out of our Committee, 
but were simply enacted to accommodate the President's budget 
submission to Congress. The fight to preserve these block 
grants is going to be engaged in the coming Congress. 
Unfortunately, what I have found is that the case has not been 
made effectively that this block grant represents a unique 
funding stream that is very important to local communities. 
From your perspective, I was wondering if you could share with 
the Subcommittee how this money is used in Florida and what the 
cuts would mean in terms of services.
    Ms. Sanderson. As with other block grants, with the gift of 
flexibility comes the defusing of how the money is used, so 
that as each State uses it differently, I think it is hard for 
the Federal Government to see the clear impact of these 
reductions. In Florida, most of the block grant is used in 
Florida's child protection system; the second most significant 
portion of the block grant is used for funding child care 
programs for at-risk and working poor clients; a small amount 
of the block grant goes to the Department of Juvenile Justice 
for juvenile justice programs; and very small amounts of 
funding in developmental services and in mental health.
    Mr. English. Thank you, Mr. Chairman.
    Chairman Shaw. We will be exploring the expansion of the 
block grant funding in this next Congress. I know that Chairman 
Johnson will be interested in that, as I am. And we will also 
be looking for some of you to come up and testify before the 
Subcommittee in Washington. There is just so much to do, and I 
think we have already learned quite a bit from this panel and 
we very much appreciate your being here.
    The record will remain open for a short time, if there is 
anything that you would like to any way embellish upon your 
testimony or if there are any questions that any Members of the 
Full Committee might have for you, we will certainly address 
them to you.
    Thank you very much for your time.
    One question before you leave. Representative Sanderson, 
let me just ask you a question real quick. If you were sitting 
in our position in Washington, what would you change about the 
law that would assist you in the appropriations process, other 
than more money? What can we do further? We have come a long 
way, particularly in adoption and foster care, we have made a 
lot of corrections to Federal law, but that is not to say there 
is not more we can do. Do you have any ideas?
    Ms. Sanderson. I think other than additional dollars, 
Congressman Shaw, if we had the opportunity to combine waivers 
sometimes, it would give us greater flexibility. The Medicaid 
issue is something that has always bothered me, the Federal 
Government says that we cannot require anyone to make 
copayments on this. We have tried to do this. With 
pharmaceuticals we put a $1 copayment on Medicaid 
pharmaceuticals, and Legal Aid was so nice to send out letters 
to every Medicaid recipient in the State of Florida and tell 
them that they did not have to pay it because the feds said 
they did not. We again were trying to expand our resources 
within existing dollars.
    These are the types of things that would give us the 
flexibility that we need. When it comes to the Medicaid 
services that are provided for these little ones that are 
brought into our system, there does not seem to be any 
financial responsibility on the part of the parents that 
brought them into this world. And that has got to change, they 
are their children.
    Chairman Shaw. Is there any State legislation which speaks 
to the training required of these people, the number of 
children that the caseworkers are supposed to be looking after?
    Ms. Sanderson. Yes, and we have tried to reduce that with 
additional dollars. That was the premise behind it, in addition 
to the training. What I mentioned in the grand jury report, 
when I find that they are still working toward reunification, 
which of course would be ideal, but not in all cases, and they 
are not doing that, and we have been putting millions of 
dollars in, which I know Secretary Radigan can testify to, over 
the last number of years. Right now, with all the mandates that 
we have, that are partially Federal and over 50 percent of our 
budget, and I am facing right now with these mandated 
situations, a $200 million deficit in my budget in the coming 
year. So that is not a pleasant thought.
    Chairman Shaw. Thank you. Thank you all for being here, 
thank you very much.
    I would like to recognize, we have got Mayor Naugle with us 
today. He is taking care of his shared child care 
responsibilities we see. We are pleased to have you and we 
wanted to thank you personally for allowing us the use of the 
hall here this morning.
    I am going to try to start enforcing the 5-minute rule. We 
have got a large panel here and we have got a lot of work to 
accomplish this morning.
    We have got Johnny Brown, who is the District 10 
administrator of the Florida Department of Children and 
Families; Howard Talenfeld, who is--this is a law firm?
    Mr. Talenfeld. Yes, sir.
    Chairman Shaw. Here in Fort Lauderdale; Christine Meyer, 
who is the program attorney, the Guardian Ad Litem, Seventeenth 
Judicial Circuit of Florida; Carol Ann Loehndorf, who is the 
president of AFSCME Local 3041 in West Palm Beach; Linda Day, 
president of Fort Lauderdale Foster Parents Association; Kate 
O'Day, who is the vice president for Program Development and 
Evaluation, Children's Home Society of Florida; Eileen Donais--
I hope I am pronouncing that correctly--who is the executive 
director of HANDY, Helping Abused and Neglected Dependent 
Youth, here in Fort Lauderdale. Welcome, all of you.
    I believe we have got the testimony from all of you, which 
we will make part of the record, and we would invite you to 
summarize in any way you see fit.
    Mr. Brown.

   STATEMENT OF JOHNNY L. BROWN, DISTRICT 10 ADMINISTRATOR, 
          FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES

    Mr. Brown. Thank you, Chairman, Mr. English, elected 
Representatives, ladies and gentlemen and guests, thank you for 
the opportunity to address what has been called Broward 
County's foster care crisis.
    I have been asked to address some specific subjects here 
today, such as education opportunities for foster children, our 
district's staffing, the historic lack of resources for our 
county's foster care program, and the benefits derived from 
flexible funding. I will do that presently, but first, allow me 
to give you a little history.
    In August 1997, when I took over the helm of District 10, I 
knew I had inherited a district that was in a state of 
gridlock, which it had six administrators in the last 10 years.
    The culture of the child welfare division led employees to 
spend most of their energy finding excuses instead of looking 
for solutions. Fiscal year 1997-98 ended in a $4 million 
deficit in our out-of-home care budget. The staff was carrying 
caseloads 3.5 to 4 times the national average. Staff turnover 
of service counselors was 61 percent. There was no plan in 
place to address the looming crisis, no thought had been given 
to the future. That was left for me and my new management team.
    It was not difficult to figure out why these things were 
happening--while funding for foster care in Broward County has 
increased 4 percent over the last 3 years, during that same 
timeframe, the district caseloads have grown a whopping 26 
percent.
    Last year, the Florida legislature gave us 52 new positions 
which will reduce the caseloads from 1 to 51 to 1 to 24 after 
our new employees finish their training in February. That is 
almost twice the recommended caseload for a foster care 
counselor.
    In June 1997----
    Chairman Shaw. Which is twice the caseload, the 1 to 25?
    Mr. Brown. The 1 to 24 is almost twice.
    Chairman Shaw. It is still twice the recommended caseload.
    Mr. Brown. Almost.
    Chairman Shaw. So we are at four times the recommended 
caseload?
    Mr. Brown. At this present time, but the national average 
is 1 to 15.
    Chairman Shaw. Excuse me for interrupting, but thank you.
    Mr. Brown. In June 1997, District 10 had 1,129 children in 
its out-of-home care population and a budget of $7,369,000. In 
June 1998, we had 1,397 children in our out-of-home care 
population, 268 more children than the previous year and a 
budget of $7,319,000, which equates to a budget that was 
$50,000 less than the year before. In fact, in District 10 
today, Broward County, we have 13 percent of the children in 
statewide foster care and only 9 percent of the resources. And 
when you are talking about a budget of over $100 million, the 
4-percent difference becomes a substantial deficit. Our deficit 
today stands at almost $11 million and growing. Why?
    As Judge Kearney said, because in Broward County, more 
children are coming into care at a faster rate and many of 
these children are coming into care experiencing severe 
emotional behavior and psychological problems. So additional 
resources have to be utilized to treat these children.
    District 10 does not control its front door. We not only 
investigate child abuse and neglect allegations, we also 
provide the children in foster care with adoptions and a myriad 
of other services.
    Ladies and gentlemen, as soon as I became the district 
administrator, we warned everybody about our crisis. We were 
warned by Mr. Talenfeld within a matter of 2 weeks after we 
were appointed to the position that he planned to sue us if we 
did not improve the services to foster children. The report 
before you contains the evidence to that fact. Our Health & 
Human Services Board sent up flares. We asked for help. But the 
demands for our services grew, and continued to grow, and our 
deficit grew and continued to grow, and here we are today.
    This problem is not unique to Broward County or unique to 
the State of Florida. Time and time again, colleagues from all 
over the State--indeed all over the country--have shared 
similar stories with us.
    Let me now address your specific concerns:
    In section G of the briefing package before you is a letter 
outlining the joint efforts of the Broward County School Board 
and District 10 on behalf of its foster children. I am in debt 
to Howard Talenfeld for his intervention with the School Board 
and for the commitment to helping us forge and strengthen these 
ties of cooperation in our community to improve the quality of 
life and services to our foster children.
    Thank you, Howard.
    We were also able this past September to open a residential 
assessment center. The new program allows us to thoroughly 
assess the specific needs of children who come into care as 
well as the needs of his or her family, so that our department 
can make proper recommendations for services to these families.
    Chairman Shaw. Go ahead and summarize.
    Mr. Brown. Let me expand just briefly on the staffing. 
Currently we have 171 service counselors plus 63 investigators 
and that includes the new positions that Linda alluded to 
earlier. We have managed to make inroads on our turnover as 
well. In calendar year 1997, the turnover rate was 61 percent. 
Thus far this year, the turnover rate is half of that. But that 
still needs to be improved.
    I do just want to briefly summarize since I have run out of 
time. In south Florida we pay our counselors $26,000 a year. 
That is not enough. As the Sheriff alluded to, he is going to 
try and pay his employees $8,000 to $10,000 more. We have been 
able to get more people coming into our positions with advanced 
degrees but it is going to be difficult to keep those people on 
board if we do not improve the pay scale.
    I am gratified in reference to what was presented in the 
grand jury report. We think all of those recommendations are 
true. We have put together a group of stakeholders in this 
community to try and address the issues that were made in the 
grand jury's report. But I think here in this State, Mr. 
Chairman, we are all going to have to be honest with ourselves 
and admit the fact that we do have a crisis here, not only here 
in Broward County, but throughout this State, as to how we are 
taking care of our foster children. Our elected officials are 
going to have to admit that too and as Representative Sanderson 
indicated, resources is an issue that has to be addressed. And 
until we address the resources and until we improve the 
training for our staff, this system, this broken system is 
going to remain broken.
    Thank you very much.
    [The prepared statement follows:]

Statement of Johnny L. Brown, District 10 Administrator, Florida 
Department of Children and Families

    Elected Representatives, ladies and gentlemen, and guests, 
thanks for the opportunity to address what has been called 
Broward County's foster care crisis.
    I have been asked to address some specific subjects here 
today, such as educational opportunities for foster children, 
our district's staffing, the historic lack of resources for our 
county's foster care program, and the benefits derived from 
funding flexibility. I will do that presently. But, first, 
allow me to give you a little history.
    In August 1997, when I took over the helm of District Ten, 
I knew that I had inherited a district in a state of gridlock 
that had six administrators (six!) in its last ten years.
    The culture of the district led to employees spending most 
of their energy finding excuses, not looking for solutions. 
Fiscal Year 1997-98 ended in a $4-million deficit in the 
district's out-of-home care budget. The staff was carrying 
caseloads 3.5 to 4 times the national average. Staff turnover 
of service counselors was 61 percent. There was no plan in 
place to address this looming crisis. No thought had been given 
to the future; that was left to me and my new team. Here we 
are.
    It wasn't difficult to figure out why these things were 
happening--while funding for Foster Care in Broward County has 
increased by only 4 percent over the last three years. During 
that same period of time, the district's caseload has grown by 
a whopping 26 percent.
    Last year, the Florida Legislature gave us 52 new 
positions, which will reduce caseloads from 1 to 51 to 1 to 24 
after our new employees finish their mandated three months of 
training in February. That is almost twice the recommended 
caseload for a foster care counselor, but it's a start.
    In June of 1997, District Ten had 1,129 children in its 
Out-of-Home Care population and a budget of $7.369-million to 
care for these children. In June of 1998, we had 1,397 
children--268 more than the previous year!--and a budget of 
$7.319-million, a slightly smaller budget.
    In fact, today in District Ten, Broward County, we have 13 
percent of the children in care statewide and only 9 percent of 
the resources.
    Our deficit today stands at almost $11-million dollars. And 
growing.
    Why? Because in Broward County, more children are coming 
into care at a faster rate and many of these children come into 
care experiencing severe emotional, behavioral and 
psychological problems, so additional resources have to be 
utilized to treat them.
    District Ten doesn't control its front door. We not only 
investigate child abuse and neglect allegations, we also 
provide the children foster care, adoption, and a myriad of 
other services.
    Ladies and gentlemen, as soon as I became the district's 
administrator, we warned everybody about our crisis. The report 
before you contains evidence to that effect. Our Health & Human 
Services Board also sent up flares. We asked for help. But the 
demands for our services grew--and continue to grow--and our 
deficit grew. And continues to grow. And here we are.
    This problem is not unique to Broward County, or unique to 
the State of Florida. Time and again, colleagues from all over 
the state--indeed from all over the country--have shared 
similar stories with us. The state of foster care in the United 
States mirrors the state of foster care in Florida. And it's 
not a pretty picture.
    Let me now address your specific concerns:
    In Section G of the briefing package before you is a letter 
outlining the joint efforts of the Broward County School Board 
and District Ten on behalf of our foster children. I am in debt 
to Howard Talenfeld for his intervention with the School Board 
and for his commitment to helping us forge and strengthen these 
ties of cooperation.
    This memo and the commitments made in it mark the start of 
what I believe will be a meaningful turn around in the way our 
agencies have worked, or failed to work, as some have said, on 
behalf of the children we serve in common.
    We were also able, this past September, to open the first 
Family Assessment Center in the state, which allows us to 
thoroughly assess the specific needs of each child who comes 
into care, as well as the needs of his, or her, family.
    I touched briefly on staffing before.
    Let me expand on that. Currently, we have 171 service 
counselors, plus 63 protective investigators, including the new 
positions I spoke about earlier.
    We've managed to make inroads into our turnover rate, as 
well. In calendar year 1997, the turnover rate in service 
counselors was 61 percent. Thus far, in 1998, and as of 
September, the turnover rate has dropped by half--still way too 
much, by anyone's accounting. But it's a start.
    We've been fortunate in Broward County to have a strong 
internship program. We have been able to attract employees with 
advanced degrees.
    But in South Florida, it is very difficult to retain new 
and qualified staff whose salaries seldom exceed $26,000 per 
year and working conditions that are hard to imagine.
    Ladies and gentlemen, I am grateful for the Grand Jury's 
report. I'm gratified that members of this community took the 
time and analyzed the facts and brought the subjects of my 
concerns--the children of Broward County--to the forefront. I 
have vowed not to let this Grand Jury report sit on a shelf and 
collect dust, and have already taken steps to organize the 
review committee the Grand Jury's report recommended. The 
letters of invitation to stakeholders have been sent and our 
first meeting is scheduled for January 6th.
    But, as the Grand Jury Report makes only too clear, this 
crisis is not new.
    I am heartened by the support I have received from the 
leaders in this community, going all the way to Washington, DC. 
From the Sheriff's Office, from the Broward County School 
Board, from the dedicated members of our own Health & Human 
Services Board, from my colleagues at the Coordinating Council.
    And from you ladies and gentlemen, who have requested 
information and shown a willingness to understand the root 
causes of a crisis of this nature and help us to ensure this 
doesn't have an opportunity to occur again.
    But words and encouragement are never enough.
    Our efforts at making Broward County a model for 
privatization for the state have started--by April 1999, or 
earlier, protective investigations of child abuse and neglect 
will be conducted by the sheriff's office because they have the 
know-how and the resources to do a much better job. It's simply 
the right thing to do.
    We are committed to the privatization of those services 
that can best be delivered by the private sector.
    At this moment, we have submitted a grant request for two 
villages, to be run by private providers to house up to 160 of 
our hard to place older children.
    We are about to receive $200,000 from The Ounce of 
Prevention to help us start a program called Neighbors to 
Neighbors, which has met with great success in Chicago and is 
about to be launched in Daytona. Representatives of the program 
met with our staff this past Thursday and the exchange was 
lively and fruitful.
    It's still not enough.
    I need a budget that is commensurate with the need at hand 
as well as with the future needs of our county's children. I am 
grateful for the new positions we received this year. But I 
need at least half as many more employees.
    I also need--indeed, Florida and my fellow district 
administrators need--budgetary flexibility commensurate with 
the individual problems at hand, with the specific challenges 
of a specific district in mind. Let's face it--the needs of 
Broward County, or Dade County, are dramatically different from 
those of Pensacola, or the Panhandle Region, or even those of 
our friends on the West Coast.
    But even that won't be enough.
    I need our community to rise to the challenge and give us 
more foster homes--at least 400 more beds. So we can continue 
the job we've started. During this past Fiscal Year, we closed 
64 homes and opened 119 new ones for a gain of 55 homes.
    But that wasn't enough. We must do even better than that 
but we can't do it alone.
    I sincerely appreciate you coming down here and I 
appreciate your openness and your courtesy toward my staff and 
me.
    It hasn't been an easy year. But what we're going through 
is nothing compared to what the children in foster care go 
through every day, separated from their families, separated 
from their friends and schoolmates. Sometimes, re-abused in the 
places where we, in good faith, placed them thinking we were 
protecting them from harm.
    I need your support and I need this community's support.
    The solutions needed to solve this crisis of conscience 
have to come from Broward County and begin with the classic 
first step in problem solving--recognizing the existence of a 
problem and facing it head on.
    Those of us who represent government have to admit we have 
a crisis in this state and in this country with the foster care 
system.
    Only then can we can deliver, in a voice strong enough to 
be heard all the way to Tallahassee,--maybe all the way to 
Washington, DC, as well--a sound set of solutions to make the 
necessary changes to fix this broken system.
    I am happy that Governor-elect Bush has appointed Judge 
Kearney, one of this country's leading child advocates, to lead 
our department. It shows our new Governor has a keen 
understanding of this issue.
    As DCF Secretary, Judge Kearney is going to be a powerful 
voice for Florida's children, and she'll need your support, as 
well as the support of this community, as she goes about 
developing legislative priorities for our department in the 
coming months.
    Ladies and gentlemen, to turn away from the opportunity 
this crisis has dropped in our community's lap again is 
unthinkable.
    We risk losing a generation of kids who are looking to us 
with hope and with expectation that this time (this time!) our 
community, our state, our nation, and our district will live up 
to their responsibility toward its most vulnerable citizens, 
its young children.
    Thank you.
      

                                <F-dash>

    Chairman Shaw. Thank you.
     Mr. Talenfeld.

 STATEMENT OF HOWARD M. TALENFELD, COLODNY, FASS & TALENFELD, 
P.A., FORT LAUDERDALE, FLORIDA; ON BEHALF OF YOUTH LAW CENTER, 
                    BROWARD COUNTY, FLORIDA

    Mr. Talenfeld. Chairman Shaw, Mr. English, I want to thank 
you for the opportunity of placing children at risk over the 
priorities of other business in Washington today.
    I was deeply saddened as a board member of the Youth Law 
Center and having served this State for 5 years defending class 
action litigation, in having to file this litigation here in 
Broward County. But the facts remain, in the 14 months since 
Mr. Brown took over, notwithstanding his efforts, children are 
still being physically and sexually abused. We have a severe 
truancy problem where children are not in school and they are 
turning to drugs and alcohol and other types of at-risk 
behaviors. And District 10 here still has more than 100 
children who are missing and definitely not in school today, as 
I speak to you.
    Broward County is not alone. Twenty-four States and the 
District of Columbia have been subject to these suits which 
have been filed in the jurisdictions where children are 
suffering, unfortunately at the hands of the State who is 
supposed to be there to protect them.
    I appreciate the opportunity to talk to you and share with 
you some of the Broward experiences so that we can make some 
recommendations to you with respect to the Adoption and Safe 
Families Act, titles IV-B and IV-E, and improvements that may 
occur on a Federal level to avoid the tragedies we are 
experiencing here in Broward County today. We are going to make 
three suggestions:
    First, Congress must address specifically the issue of 
inappropriate child-on-child sexual activity in foster care. At 
the present time, since the filing of the class action 
litigation, we have become aware of approximately 50 instances 
of this child-on-child sexual activity. There is no centralized 
registry in the State of Florida that receives reports of 
child-on-child sexual activity, even though we have an abuse 
registry mandated by Federal law. In fact, right now here in 
Broward County, the only record, the only tracking system, is 
this four-page system which I can assure you does not contain 
each incident. The purpose of such tracking is critical.
    Recently, as you are aware, the American Medical 
Association--Journal of the American Medical Association 
pointed out the seriousness and the severity of these problems, 
the substantial, lasting impact that they will have on 
children's lives when they were exposed to this, particularly 
children coming into care for other forms of neglect or abuse. 
And unfortunately, they point out that most of the time, the 
public authorities that are contacted are the police 
departments and not the social service agencies, for various 
reasons. And so we are suggesting to you, and underscoring to 
you, the necessity that tracking systems on a statewide level 
must exist to determine which children coming into care have 
these problems, so that we can provide treatment to them as 
well as protect other children.
    Second, children in foster care must receive appropriate 
education. More often than not, they are several years behind, 
lagging with respect to grade levels, and most graduate to the 
streets instead of obtaining their high school diplomas.
    Unfortunately, although there are Federal mandates that 
specifically talk about including educational records in a 
child's case plan and making sure that children maintain some 
stability in their education, there is no requirement that the 
schools and other educational organizations be involved in the 
case planning process. In fact, confidentiality has been used 
as a bar to prevent this. We must look to these children's 
educations as part of the foster solution. Although the foster 
care systems of most States look to their custodial 
arrangements at night, it only makes sense when children are in 
school 25 hours a week that we look to the schools for their 
education and to help them as well. That is where we are 
putting our precious resources.
    And the third point we want to make is that the States 
should not be allowed to give up on the children who are 
missing from care. As I alluded to earlier, there are 
approximately 100 children missing today in Broward County who 
cannot be found. They are not receiving their education. They 
are certainly in a position where they are at risk on the 
streets. Some of these girls are selling themselves, they are 
using drugs, they are using alcohol, but they have certainly 
lost the permanent opportunity for their education. When a 
child, one of our children, is lost, the newspapers headline 
it. Yet there were no pictures today of the 100 children in the 
newspapers who are missing from Broward County.
    We greatly appreciate your leadership and we are hoping 
that you fill in the gaps that are missing with respect to the 
Adoption and Safe Families Act. You certainly have been a 
leader in that regard, but again, the job is very, very 
difficult and we are extremely hopeful that you will look to 
these three issues--the children who are being physically and 
sexually abused, children who are not in school right now and 
the children who are on the streets--when you look at 
performance standards for the States with respect to this Act.
    Thank you.
    [The prepared statement follows:]

Statement of Howard M. Talenfeld, Colodny, Fass & Talenfeld, P.A., Fort 
Lauderdale, Florida; on Behalf of Youth Law Center, Broward County, 
Florida

    Representative Shaw and Members of this Subcommittee, I am 
privileged to be here today to testify on behalf of the Youth 
Law Center, a not for profit advocacy group which is seeking to 
protect the more than 1500 children in care of the Florida 
Department of Children & Families, District 10 serving Broward 
County, Florida.\1\

                I. The Broward County Foster Care Crisis

    Broward County's foster care system is in a state of 
crisis.\2\ The Youth Law Center became seriously concerned 
about this crisis when it received a complaint concerning child 
on child sexual abuse in District 10 and learned of a study 
District 10 commissioned which documented that 41% of children 
receiving targeted case management \3\ in Broward County were 
known to have been sexually abused.\4\ This study also 
documented that large percentages of such children were known 
to steal [63%], were truant [45%], and had special education 
needs [76%].
    After a thorough investigation, on August 11, 1997, the 
Youth Law Center wrote District 10 [Broward County] expressing 
its concern that children in District 10's care and custody 
were regularly harmed by Florida's dangerous, over-crowded, and 
inadequately supervised foster care system. This letter put the 
department on clear notice that children in District 10's 
custody were in extreme danger.
    After allowing 14 months for the department to solve these 
problems, on October 20, 1998, the Youth Law Center, on behalf 
of eight foster children, filed a federal class action suit 
alleging that Broward County's foster care system was 
unconstitutionally dangerous and that many of District 10's 
foster children have been physically and sexually abused, often 
by other children. These children have been confined in the 
states' custody in overcrowded, unsafe, and inadequately 
supervised and monitored foster homes and shelter facilities. 
These placements are made with inadequate screening and 
evaluation of children to determine whether the children 
present a danger to each other. Further, the District has 
failed to monitor children once they are placed in these homes 
due, in part, to overburdensome caseloads averaging almost 300% 
nationally recommended standards. Foster children are allowed 
to be truant, and the department has failed to locate and 
protect almost 100 District 10 children who are missing from 
placements and whose whereabouts are unknown. These truant and 
missing children are at risk of drug and alcohol abuse, 
prostitution, and delinquency.
    These dangerous conditions have not yet been resolved and 
are continuing today. On November 16, 1998, a Broward Grand 
Jury issued its interim report making similar findings 
regarding the conditions of foster care. More recently, on 
November 24, 1998, a juvenile judge convened an emergency 
review when he received information that as many as seven 
children in an over-crowded foster home were victims and 
perpetrators of child on child sexual assault. Several days 
later we learned that District 10 was unaware that a 13 year 
old boy and a 16 year old boy in a District 10 placement also 
engaged in child on child sexual activity. On December 8, 1998, 
we were notified that a 12 year old girl suffering from 
Cerebral Palsy alleged was sexually assaulted two years ago 
while living in a District 10 foster home. These tragedies and 
the misfortunes of the named Plaintiffs, are not isolated 
examples of children whose lives are scarred at the hands of 
their state caretakers.\5\ Rather, they exemplify the harms 
suffered by many other foster children. Since filing the class 
action proceeding and without having access to Florida's 
central abuse registry, we have been made aware of at least 50 
other alleged incidents of child on child sexual abuse and many 
other instances of alleged neglect and physical abuse.

                 II. The National Child Welfare Crisis

    Broward County is not alone. Twenty-one states, or regions 
therein, and the District of Columbia are in federal class 
action litigation because they have allowed children to be 
injured and to languish in foster care.\6\ Tragically, children 
who are the victims of neglect and abuse are often re-abused by 
the state which was supposed to protect them, educate them, and 
find permanency for them. Through these litigations, Plaintiffs 
are seeking to enforce United States Constitutional and federal 
statutory rights on behalf of children for the minimum 
protections guaranteed them. Despite spending close to $5 
billion dollars nationally with almost $200 million going to 
Florida alone,\7\ the child welfare crisis is a national 
emergency that requires immediate Congressional solutions.

                      III. Congressional Solutions

    As a result of our Broward experience, we have identified 
three recommendations which are pertinent to your concerns 
regarding appropriate federal oversight.\8\

A. Inappropriate child on child sexual activity in foster care 
must be addressed

    First, the State of Florida does not have a comprehensive 
system to track all reports of child on child sexual abuse so 
that such information can be used in making placement decisions 
and in providing appropriate treatment to victims and 
perpetrators. Although Florida adheres to the literal mandates 
of CAPTA,\9\ Florida does not require the reporting of child on 
child physical and sexual abuse which occurs where the 
caretaker is not at fault.\10\ ``Therefore assaults among 
foster children are not included in [The Florida Protective 
Services System].'' \11\ Additionally, although 42 U.S.C. 
Sec. 671(10) provides that state plans must ``report to an 
appropriate agency known or suspected instances of physical or 
mental injury or sexual abuse or exploitation, or negligent 
treatment or maltreatment,'' this provision has not been 
construed by Florida to require such reporting of inappropriate 
child on child sexual behaviors to the centralized abuse 
registry.
    No child can be safe in foster care if he or she is placed 
with another child who is a sexual perpetrator. In 1991, the 
Department of Health and Rehabilitative Services reported that 
``...approximately 9.5% (1,168) of the children in foster care 
had engaged in sexual behavior that was of concern to the 
foster care counselor,'' and ``...foster care counselors 
identified 200 children who had sexually assaulted another 
child within the previous 12 months.'' \12\ The October 1995 
Qualifacts study, finding a 41% prevalence in the subject 
population in Broward County, confirms the exigency of the 
problem. In this month's Journal of the American Medical 
Association, Dr. William C. Holmes and Dr. Gail B. Slap, 
reviewed 166 studies from 1985 to 1997 concerning the sexual 
abuse of boys and confirmed the urgency of addressing this 
widespread problem.\13\ Although this study found prevalence 
estimates which varied from 4% to 76% depending upon 
methodologies utilized, the study concluded, ``[t]he sexual 
abuse of boys is common, underreported, unrecognized, and 
undertreated.'' ``Sequelae included psychological distress, 
substance abuse, and sexually related problems ...Negative 
sequelae are highly prevalent and may contribute to the 
evolution from young victim to older perpetrator.'' \14\
    Notwithstanding the high prevalence of child on child 
sexual abuse identified in the 1991 Florida study, the Florida 
Department of Health and Rehabilitative Services did not 
implement the ``... key recommendation to improve early 
identification of perpetrators prior to placement in foster 
care in order to decrease the risk of sexual assault in foster 
care.'' \15\ Nor did this agency respond to the emergency 
sounded by the relatively recent Qualifacts study. Citing a 
1984 review,\16\ the authors of this month's AMA review wrote, 
``When public authorities were contacted about the abuse, 
reports were made to the police rather than child protective 
services.\17\
    Such findings, both in Florida and nationally, underscore 
the necessity to identify potential victims and perpetrators 
for treatment and the protection of other children in foster 
care. An amendment to CAPTA requiring the states to identify 
both child on child physical and sexual abuse, will enhance the 
safety of foster care and protect many young, innocent 
children, such as the foster children in Broward County, from 
re-abuse.

B. Children in foster care must receive appropriate educations

    Second, foster children are also being harmed because their 
educations are disrupted. Once children come into care, they 
are automatically removed from their schools and lose their 
friends, teachers and continuity in their education. More often 
than not, foster children go through as many schools as 
placements, usually lagging several years behind their 
appropriate grade level. Further, the October 1995 Qualifacts 
study has reported 45% of the population studied were truant 
and that 76% of the subject population need special education 
services. Few foster children graduate from high school.\18\ In 
Broward County, as late as October 28, 1998, the Department had 
not provided the Broward School Board the names of District 
10's foster children and the identity of their respective 
schools to address their educational and special educational 
\19\ needs.\20\ Instead of graduating high school, most foster 
children graduate to the streets.
    There is no federal mandate requiring states or local 
school boards to ensure that children in the custody of the 
states have an educational case plan. 42 U.S.C. Sec. 675(1)(C) 
only touches upon the education of foster children when it 
provides that a foster child's case plan include health and 
educational records and ``assurances that the child's placement 
in foster care take into account proximity to the school in 
which the child is enrolled at the time of placement.'' 
Logically, it makes no sense for Congress to focus only on a 
foster child's custodial plans and virtually ignore the child's 
educational and emotional needs. This omission in federal law 
makes no sense when Florida child welfare workers are required 
to visit a child only once per month,\21\ while state law 
mandates that teachers see children 25 hours per week.\22\ 
Local school boards devote thousands of dollars per year for 
the education and special education \23\ of children, money 
which should be also directed to addressing the national foster 
care crisis and the educational needs of foster children.

C. States should not be allowed to give up on children who are 
missing

    Third, there is no effort in District 10 to find or serve 
missing foster children. The October 30, 1998, District 
Administrator's report identified that there were 96 children 
on runaway status, a marked increase over 1996 and 1997 when in 
corresponding months approximately 70 children were reported to 
be on runaway. Our foster children on runaway status are, for 
the most part, abandoned by District 10, and left to fend for 
themselves on the streets. As a result, they are not enrolled 
in school and are exposed to the dangers associated with Fort 
Lauderdale street life--alcohol and drug addiction, 
prostitution, sexually transmitted diseases, pregnancy and the 
commission of crime. Sadly, many of these children could be 
returned to a foster home or other residential placement if 
District 10 simply made the effort to pick them up.
    Admittedly, these foster children present the greatest 
challenge to any foster care system, and there are no easy 
solutions. However, the children who run from foster care will 
tell you that they do so because they feel abandoned, rejected, 
neglected and abused by District 10. They do not believe they 
are any worse off on the streets than in the foster homes 
licensed by the district. District 10 and other child welfare 
systems must be mandated to develop meaningful procedures to 
locate these children, to place these children in uncrowded 
homes with foster parents who are trained to address their 
issues, and to provide caseworker support for these children 
and their foster parents.
    Federal statutory law does not impose an express obligation 
to find or to serve missing foster children. Although the 
Runaway and Homeless Youth Act, 42 U.S.C. Sec. 5701, et seq., 
provides funding to both public and private entities to assist 
in the development, building, and renovation of runaway and 
homeless youth centers, this act does not target children in 
the custody of the states.\24\ 42 U.S.C. Sec. 671 et seq. must 
be amended to ensure that states are required to locate and 
serve foster children who are missing. We cannot simply write 
these children off and abandon them like a trash heap on the 
streets.

                             IV. Conclusion

    Although Broward County's foster care crisis is not unique, 
the plight of our foster children serves to emphasize three 
areas of state and local accountability which will make a 
difference in the national challenge. The identification of 
children who are abused by each other will reduce the incidence 
of re-abuse in foster care and promote the treatment of these 
children who are in need. The assurance that foster children 
will have educational case plans tailored to their needs will 
bring substantial resources into the battle. And, by requiring 
states to locate and treat missing foster children, we may 
avoid the permanent disruption of their education and their 
subjection to unknown dangers which in many cases is far worse 
than the neglect and abuse which required their removal in the 
first place.
    \1\ District 10 is the catchment area for the State of Florida 
Department of Health & Rehabilitative Services, now the Florida 
Department of Children & Families serving Broward County, Florida.
    \2\ Johnny Brown, District Administrator for District 10, admitted 
that the foster care system is in a ``state of crisis.'' He 
acknowledged the problem, stating, ``When you have overcrowded homes, 
you have problems with supervision...we still have a lot of work to 
do.'' Sally Kestin, Foster system failing kids, Sun-Sentinel, October, 
19, 1998, at 1B.
    \3\ Targeted or Medicaid case management ``means the service to 
assist an individual in accessing needed medical, social, educational 
and other services.'' Fla. Admin. Code Ann. r. 59G-8.300 (1998).
    \4\ Qualifacts Systems, Inc, ``District 10 Broward County, 177 
Children and Families Receiving targeted Case Management Services,'' 
October 1, 1995.
    \5\ These are examples from the complaint attached as Exhibit 
``A.'' Plaintiffs' Complaint-Class Action, Ward v. Feaver, Case No. 98-
7137-Civ-Moreno.
    \6\ National Center for Youth Law, Foster Care Reform Litigation 
Docket, (1998).
    \7\ Letter from Representative E. Clay Shaw to Howard M. Talenfeld, 
November 23, 1998.
    \8\ Although we believe that unfunded federal statutory mandates 
imposed upon the states contribute to this crisis, we assume that the 
purpose of the December 14, 1998 hearing in Fort Lauderdale is to 
receive constructive suggestions concerning holding states and 
localities accountable for the tragedies rather than to hear trite 
requests for additional federal funding for family preservation and 
foster care programs.
    \9\ The Child Abuse Prevention and Treatment and Adoption Reform 
Act, 42 U.S.C.A. Sec. 5106 (1998).
    \10\ In Florida, such reports are only received if ``the alleged 
victim lacks supervision or has been neglected or abused by the 
caretaker.'' Fla. Admin. Code r. 65C-13.015(1998). ``There are no 
current laws that require the reporting and tracking of sexual assault 
perpetrated by a child in the custody of the department.'' Department 
of Health and Rehabilitative Services, Office of Children Youth and 
Family Services, ``A Study of Sexual Assault Among Foster Children in 
Florida'' (February 1991), p. 5. See DOA v. Department of Health and 
Rehabilitative Services, 561 So. 2d 380 (Fla. 1st DCA 1990) (Sexual 
intercourse between 13 year old boy and 5 year old niece did not 
constitute child abuse pursuant to Section 415.503, Florida Statutes.)
    \11\ Department of Health and Rehabilitative Services, Office of 
Children Youth and Family Services, ``A Study of Sexual Assault Among 
Foster Children in Florida'' (February 1991), p. 5.
    \12\ Id. at I.
    \13\ William C. Holmes, M.D. and Gail B. Slap, M.D., M.S., Sexual 
Abuse of Boys: Definition, Prevalence, Correlates, Sequelae, and 
Management, JAMA, December 2, 1998 at 1855.
    \14\ Id.
    \15\ See note 12, supra.
    \16\ Finkelhor D. ``Boys as Victims: Review of the Evidence,'' 
Child Sexual Abuse: New Theory and Research, New York, N.Y., The Free 
Press, pp. 150-170, (1984).
    \17\ Finkelhor postulated that male underrepresentation in commonly 
studied databanks from child protection agencies reflected both low 
overall reporting and preferential reporting to less commonly studied 
police records. Id. at 1855.
    \18\ Although the Department of Children and Families has not 
published a study on the graduation rates of foster children, our 
summary of the data which they produced regarding children who age out 
of the system rather than run away, confirms that no more than 30% 
receive a high school or other type of diploma.
    \19\ Individuals With Disabilities Education Act, 20 U.S.C. 
Sec. 1400 et seq.
    \20\ Karla Bruner, Data on foster kids can't be located, The 
Herald, October 28, 1998, at 5B.
    \21\ Fla. Admin. Code Ann. r. 65C-13.010 (1998).
    \22\ Fla. Stat. Sec. 228.041(13)(1998).
    \23\ Individuals With Disabilities Education Act, 20 U.S.C. 
Sec. 1400, et seq.
    \24\ In addition, the Act provides funding to implement and sustain 
outreach programs to assist runaways with drug/alcohol abuse, 
education, living assistance, and a wide variety of other needs. This 
act does not make special provision for the identification, location, 
and return of the increasingly large number of foster care children who 
have runaway from their placements. Runaway and Homeless Youth Act, 42 
U.S.C. Sec. 5701, et seq.

    [The attachment to this statement is being retained in the 
Committee files.]
      

                                <F-dash>

    Chairman Shaw. Thank you.
    Ms. Meyer.

  STATEMENT OF CHRISTINE MEYER, PROGRAM ATTORNEY, GUARDIAN AD 
         LITEM, SEVENTEENTH JUDICIAL CIRCUIT OF FLORIDA

    Ms. Meyer. Chairman Shaw, Mr. English, it is an honor to 
address the Subcommittee and I appreciate the opportunity.
    I am the program attorney for the Guardian Ad Litem Program 
here in Broward County. The Guardian Ad Litem Program is under 
the auspices of the judicial branch of State government. Here 
in Broward County, the program consists of approximately 700 
volunteers and 21 paid staff members.
    The court appoints the Guardian Ad Litem Program to 
approximately 3,000 abused, neglected, and abandoned children 
every year. The volunteer guardians are independent of all of 
the parties involved in a case. They are truly the eyes and the 
ears of the court. Most importantly, the guardians are the one 
face that these children can rely on in the system. Guardians 
meet with their children at least once a month, they monitor 
the case to ensure that the appropriate services are being 
delivered to these children, and they ensure that the parties 
comply with all court orders. They submit reports to the court 
and they attend the court hearing. Without these outstanding 
child advocates, these children's voices would go unheard.
    Recently, a Broward County grand jury produced a 
comprehensive interim report describing extensive and systemic 
problems facing the Department of Children and Families. Given 
this state of emergency to our child welfare system, it is 
imperative that local programs are properly funded to meet the 
Federal mandate of children's safety and well-being remaining 
the paramount concern.
    Now while the role of the Guardian Ad Litem Program is to 
represent the best interests of children, it is not to serve as 
watchdog over the Department of Children and Families. However, 
recently the Guardian Ad Litem Program has been faced with the 
situation of having to serve in that function.
    I would like to just briefly describe to you a few recent 
cases where the Guardian Ad Litem Program has found it 
necessary to ensure the safety and well-being of a child who 
would have otherwise faced further risk of abuse.
    The first case involves an abused child whose parental 
rights had been terminated. It was the guardian ad litem who 
informed the court that the department had placed this 11-year-
old boy in a preadoptive home with an alleged sexual 
perpetrator. Although the department was aware of the 
allegations for over a month, the child was not removed from 
that home. Without the guardian's diligence, this child could 
have been adopted by a man who allegedly sexually abused four 
other young men.
    In a criminal case to which the Guardian Ad Litem Program 
had been appointed, a 5-year-old girl was allegedly sexually 
abused by her stepfather. The department investigated this case 
for possible social service intervention. The guardian ad litem 
attempted to inform the department investigator that this 
stepfather was an alleged sexual perpetrator on two other 
children. The investigator responded to the guardian, ``I do 
not want to hear about those other cases.'' Additionally, the 
stepfather had his parental rights terminated to his own 
children. The mother reported to the guardian that she 
continued to take her children to jail to visit the father. The 
guardian ad litem has been informed by this investigator that 
he will close this case for further action. It will be the 
Guardian Ad Litem Program who will bring this case into court 
for possible social service intervention.
    In another Guardian Ad Litem case, it is a dependency case 
involving a 3\1/2\-year-old child who languished in the system 
for 29 months. It was the Guardian Ad Litem Program who 
retained a pro bono attorney for this child to initiate 
termination of parental rights. Otherwise, this child would 
never achieve permanency in this child's very short life.
    Those are a few cases that are reflective of a much larger 
problem. These cases reflect that perhaps the Adoption and Safe 
Families Act is not being fully implemented at the State level. 
There appears to remain the philosophy of some in the system 
that family preservation is the paramount concern. Equally 
disturbing is the fact that some of our own State legislators 
are unfamiliar with the law and believe family preservation is 
still the paramount goal. As recently as last week, we had 
State legislative hearings and our own State legislators touted 
the importance of family preservation. It is imperative that 
our own State legislators fully support and implement the 
Adoption and Safe Families Act at the State level.
    We are hopeful that one day all these children's voices 
will be heard and that the best interests and well-being of 
these children will continue.
    The recommendation is that perhaps a local oversight 
committee be implemented to oversee the cases and the decisions 
made by the department as well as the recommendation that the 
State, at the State level, implement fully the Adoption and 
Safe Families Act.
    Thank you.
    [The prepared statement follows:]

Statement of Christine Meyer, Program Attorney, Guardian Ad Litem, 
Seventeenth Judicial Circuit of Florida

    The Guardian Ad Litem Program is under the auspices of the 
judicial branch of state government. The Guardian Ad Litem 
Program in Broward County (Seventeenth Judicial Circuit) is 
comprised of approximately 700 volunteer guardians and 21 paid 
staff members. The court appoints the Program to approximately 
3000 children in Broward County.
    The Program is appointed to dependency cases where children 
have been abused, neglected, or abandoned and to criminal cases 
where children are the victims or witnesses to crimes. The 
Program also receives appointments to family law cases where 
there are allegations of abuse or neglect.
    Volunteer guardians act as the eyes and ears of the court. 
Guardians are considered parties to the case and act 
independently of all others. At least once a month, guardians 
have personal contact with the children they represent, gather 
information from those involved in the children's lives, 
monitor the case to ensure that children are receiving 
appropriate services, ensure the parties comply with all court 
orders, submit reports to the court and attend court hearings. 
Without these outstanding child advocates, these children's 
voices would not be heard.
    Recently, a Broward County Grand Jury produced a 
comprehensive Interim Report describing the extensive and 
systemic problems facing the Department of Children and 
Families (hereinafter referred to as the ``Department''). Given 
the state of emergency our child welfare system is currently 
operating under, it is imperative that local programs and 
organizations are properly funded to meet the Federal mandate 
of children's safety and well-being remaining the paramount 
concern.
    While the role of the Guardian Ad Litem Program is to 
represent the best interest of children, it is not the 
Program's role to serve as watchdog over the Department of 
Children and Families. Nevertheless, the Guardian Ad Litem 
Program, in order to protect the children, has found it 
necessary to perform this function.
    As a demonstration of the Guardian Ad Litem Program's 
critical role in the child welfare system, below are a few 
examples where the Guardian Ad Litem Program ensured the safety 
and well-being of a child who would have otherwise been at risk 
of further abuse:
    1. In a dependency case where the parental rights were 
terminated, it was the Guardian Ad Litem who informed the court 
that the Department placed an eleven year old boy in a pre 
adoptive home with an alleged sexual perpetrator. Although the 
Department was aware of the allegations for over a month, the 
child was not removed from the home. Without the Guardian's 
diligence, this child could have been adopted by a man who 
allegedly sexually abused four other young men.
    2. In a criminal case, a five year old girl was allegedly 
sexually abused by her stepfather. The Department investigated 
this case for possible social service intervention. The 
Guardian Ad Litem attempted to inform the Department 
Investigator that the stepfather was a accused of sexually 
molesting two other children. The Investigator responded, ``I 
don't want to hear about the other cases.'' Additionally, the 
stepfather had his parental rights terminated on his three 
biological children. The mother reported to the Guardian Ad 
Litem that she continued to visit the stepfather in jail and 
would bring the children with her when she visited. The 
Department investigator decided to close this case. It is the 
Guardian Ad Litem Program that will bring this case into the 
dependency court system to ensure the safety and well-being of 
the children.
    3. In a dependency case, after a 3 and one-half year old 
child languished in the system for twenty-nine (29) months, it 
was the Guardian Ad Litem Program who retained a pro bono 
attorney to move forward on a termination of parental rights 
case in order to achieve permanency for this young child.
    4. In a family law case, there were allegations of drug 
abuse, domestic violence, and physical abuse of the four year 
old child. The Department received at least three prior abuse 
reports. As the result of one of the reports, the Department 
brought the child to the Child Protection Team (medical experts 
trained in evaluating child abuse). The Child Protection Team 
recommended the father attend Parent Effectiveness Training and 
Anger Management Classes. The father did not fully comply with 
the recommendations. Although the child stated that his father 
was physically abusing him, and a psychological report 
indicated ``neither parent could be recommended as a custodian 
for the child,'' the Department decided the family did not need 
dependency court intervention. The Guardian Ad Litem did bring 
the case to the attention of dependency court, however, where 
the judge temporarily removed the child from the father's 
custody until he complied with the expert's recommendations.
    5. In a criminal case, an eight year old girl was left at a 
mall by her mother who had a a history of mental illness. The 
child was not wearing pants or shoes and was filthy. Moreover, 
the Department had previously investigated two separate abuse 
reports. One report alleged that the mother left the child at a 
busy intersection when the child was three years old. The other 
report alleged that the mother cut her daughter with a knife 
and threw her 6 year old nephew on the ground. The Department 
left the child in the mother's and grandmother's custody and 
closed their investigation. Although the Department closed the 
investigation, the Department did bring this case to the 
court's attention after the Guardian Ad Litem Program made 
several calls to the Department expressing the Program's 
concerns. Upon the Department's recommendations, the Court 
initially ordered that the child remain with the grandmother. 
Ultimately, the Court removed the child from the grandmother 
after the Guardian informed the Court that the grandmother 
lived in a two bedroom apartment with seven other people. One 
child slept on couch while another six year old boy slept in a 
bed with two adults. Additionally, during a taped criminal 
deposition, the child stated that the grandmother told the 
child to lie and say she went to the mall by herself. .
    As the above-described cases reflect, the Adoption and Safe 
Families Act is not being fully implemented and followed. There 
appears to remain the philosophy of family preservation. These 
cases represent a small sample of a much larger population. 
While local and state government should be held accountable for 
program outcomes, the lack of resources to properly implement 
these programs must be considered.
    The Guardian Ad Litem Program's mission is to represent the 
best interest of abused, neglected and abandoned children. The 
Program has a lack of funding as well, and is unfortunately 
unable to continue in the role of watchdog over the Department. 
The concern is, however, who will protect these children?
      

                                <F-dash>

    Chairman Shaw. Thank you.
    Ms. Loehndorf.

     STATEMENT OF CAROL ANN LOEHNDORF, PRESIDENT, AMERICAN 
FEDERATION OF STATE, COUNTY, AND MUNICIPAL EMPLOYEES (AFSCME), 
                           LOCAL 3041

    Ms. Loehndorf. Good morning. My name is Carol Ann Loehndorf 
and I want to thank you for the opportunity of appearing before 
you this morning. I am a family services counselor in a foster 
care unit in Palm Beach County and I am also the President of 
AFSCME Local 3041 which represents the social workers in both 
Palm Beach and Broward Counties.
    Along with my full statement, I would like to submit to the 
record a recent national survey of AFSCME child welfare 
workers.
    I enjoy working with kids and families, but I probably 
would not work for the Department of Children and Families if I 
were starting out now. Our caseloads are too big, our 
children's problems are much more severe and the State just 
does not give us enough money for the problems. Morale is at an 
all time low and staff turnover is very high.
    In some ways, our child welfare system has improved since I 
started. We have a broader array of programs and better 
procedures. We are shifting away from a primary focus on 
reunification to pursuing more than one option simultaneously, 
which is a more realistic strategy. But inadequate funding 
means our programs do not work as well as they should.
    One huge problem is the excessive caseloads, as high as 50 
or more. But these official numbers actually understate 
workloads by counting some staff who do not manage any cases 
and trainees with only a few. They ignore inefficiencies such 
as shortage of transportation aides, which means that a social 
worker has to spend up to half a day transporting children for 
family business. And they ignore the fact that many of us work 
far more than our official 40-hour week because we simply 
cannot walk away from a child in crisis.
    High turnover rates make an overwhelming situation worse. 
Only two of the counselors in my eight-person unit have been in 
the unit for more than 3 years. High turnover has at least 
three negative consequences--higher caseloads for experienced 
workers, loss of continuity for the children and a lack of 
experience to make effective judgment calls. It is almost 
impossible to describe the subtle cues and red flags I 
recognize every day from my years of experience.
    At the same time, our children have much more complex 
needs. One of my most time-consuming tasks is getting the 
medical and psychological exams necessary to place a child in 
an appropriate setting. Then after I go through this process, 
there are waiting lists for these critical services. Children 
without these placements end up in our offices. Right now, I 
have a 12-year-old foster child in my office on a daily basis. 
He is there because he was expelled from school and his foster 
mother works. I have been trying to get him back into school 
and into a therapeutic setting but this is taking a lot of 
time. This is a bad situation for him and it distracts me from 
my other children.
    We also have a crisis in attracting enough foster parents 
because more of our children have severe problems and more 
women are working outside of the home. Burnout of foster 
families is a very real problem.
    Even with all these obstacles, I would still feel good 
about my work with the department, but we feel like we are 
under siege. We have large caseloads and we need to have some 
kind of priorities on how to govern how we spend our time. Yet 
management passes this responsibility on to the frontline 
workers by default and then fails to support us if something 
goes wrong. I am equally likely to be accused of neglect by 
management if I miss a report deadline or if I miss a child's 
appointment.
    Protective investigators receive criticism for not removing 
children quickly enough and then again for removing them too 
quickly. Our administration has been slow to invest in even 
basic resources to improve our efficiency or the safety of our 
jobs. For example, I can spend up to 15 minutes because I have 
to go to another office--I have to walk across the courtyard--
just to photocopy something. Management has just recently 
installed locks on our doors, but only after several disruptive 
incidents and pressures from frontline workers. I myself have 
been threatened in my office by a father with a knife when he 
took his child from the office.
    Our State government has responded by passing a new law 
privatizing all foster care services in Florida. In other 
words, they want to give the problem to someone else. But 
privatization is no solution and may compound our problem. By 
putting a private management company between the State and 
direct frontline operations, it will be even harder to 
implement State policy consistent with adequate accountability. 
Instead of privatizing, Florida needs increased funds to reach 
reasonable and safe caseload levels. We need more social 
workers and more money to pay foster parents and more intensive 
services.
    But money is not enough. The department and the press need 
to stop scapegoating frontline workers when a child is injured 
or dies. The awful reality of child welfare is that no one can 
be right all of the time. About 5 years ago, a judge rejected 
my recommendation against reunification of a child with his 
parents. And that child was killed by his father. Even a judge 
can be wrong at times.
    No one can do a good job in an environment of fear. We need 
supportive supervisors to be available to help in tough cases, 
revamped and expanded training including more out-in-the-field 
training and mentoring for new caseworkers and better managed, 
more efficient offices.
    It is ironic that private agencies slated to take over 
foster care on January 1 are asking for immunity from lawsuits 
and assurances of payment increases as the number of children 
increase. In effect, the agency has admitted that it too will 
fail some individual children and that underfunding guarantees 
failure. If we had such reliable funding increases, I truly 
believe that we would have had a better, more stable work force 
and better outcomes for children.
    Thank you for your attention.
    [The prepared statement follows:]

Statement of Carol Ann Loehndorf, President, American Federation of 
State, County, and Municipal Employees (AFSCME), Local 3041

    Good morning. My name is Carol Ann Loehndorf. I want to 
thank the Chairman and the Subcommittee for giving me this 
opportunity to share with you my experiences as a front-line 
worker in Florida' child welfare system.
    I started working for the State of Florida on June 3, 1963 
and have spent about 20 of the past 35 years in child welfare 
and foster care. Currently I am a Family Services Counselor in 
the Foster Care Unit in Palm Beach County. I am also the 
President of Local 3041 of the American Federation of State, 
County and Municipal Employees (AFSCME), which includes social 
workers in Palm Beach and Broward Counties. I would like at 
this time to offer into the record a recently-completed 
national survey of AFSCMEs child welfare workers, ``Double 
Jeopardy: Caseworkers At Risk Helping At-Risk Kids.'' It 
describes many of the same working conditions Ill be talking 
about today.
    I enjoy working with my kids and their parents, but I 
probably would not choose to work for the Department of 
Children and Families if I were starting my career now. Our 
caseloads are too big; the children's problems are much more 
severe; and the state hasn't given us enough money to address 
these problems. Our salaries, which start at $26,000, don't 
reflect our professional status or, perhaps more importantly, 
the life and death judgments we must make each day. We also do 
not get the kind of training we need or the support we used to 
have from our supervisors and administrators. Morale has sunk 
to an all-time low, and staff turnover is very high in my unit 
and throughout the state.
    The problems and challenges in child welfare are deeply 
rooted in our society as a whole, not just within the child 
welfare system. Unfortunately, some children will die while in 
the system no matter what changes are made or who is 
administering it because it is not humanly possible to make the 
right decision all the time. Approximately five years ago, in 
fact, I had the experience of having a judge reject my 
recommendation against reunification of a child with his 
parents, only to see him die at the hand of his father. Anyone, 
even a judge, can make an error in judgment in this work. 
Having said this, however, AFSCMEs front-line workers want to 
work with our elected officials, Department administration, 
judges, and child advocates to improve the system so we can do 
the best job humanly possible to protect our children.

                         Caseloads and Turnover

    In some ways our child welfare system in Florida is better 
than the one I entered. Today, we have a broader array of 
programs and mechanisms in place which allow us to track and 
review cases more frequently with the goal of moving children 
through transition and either back into their home or into 
adoption more quickly. We also are moving toward concurrency 
planning where we will pursue more than one option for a child 
at a time. This shift away from a primary focus on 
reunification more accurately reflects the complexity of the 
situations we face. However, inadequate funding and staffing 
levels mean that our programs do not work as well as they 
could.
    One huge roadblock standing in our way to delivering 
consistent, high-quality services is the enormous caseloads 
assigned to each social worker. Several grand juries have found 
that caseloads in Broward County are too high. The 1998 grand 
jury found that caseloads here average 50, which is just about 
the number of kids I have in Palm Beach and which is more than 
three times higher than what's recommended by the Child Welfare 
League of America.
    This number, however, does not convey our situation in a 
meaningful way. It actually understates caseload sizes because 
it doesn't take into account the fact some personnel in this 
count perform administrative duties and do not manage any 
cases. It also ignores the fact that trainees with only a few 
cases are counted in the average. It ignores important 
inefficiencies in our operations. For example, we often 
transport a child for a parental visit--a task that can take an 
entire half a day--because we do not have enough transportation 
aides. Finally, it ignores the fact that many of us work far 
more than our official 40 hour work week because we simply 
cannot walk away from a child in crisis.
    High turnover rates only make an overwhelming situation 
worse. Last year, the turnover rate in Broward County was 78 
percent. In my own unit, we have eight social worker positions, 
but we are almost never fully staffed. Right now, we are down 
two because we have one vacancy and one new worker, who is 
still in training and is not yet responsible for any cases. 
Only two of us have been in my unit for more than three years; 
one has been with us two years; two have recently transferred 
from other child welfare units; and another has just completed 
her training but has virtually no field experience yet.
    High turnover and inexperience have at least three negative 
consequences. When workers leave, those of us who remain have 
to pick up their cases until new employees are hired and 
trained, a process that can take several months or even longer. 
Our children lose continuity with their social worker, who may 
be the only stable influence at that moment in their lives. 
Finally, the social workers never build up the day-to-day 
experience they need to make the difficult judgment calls we 
face constantly. Its almost impossible to describe the subtle 
cues and red flags I recognize every day based on my years of 
work in the system. There's just no substitute for this 
experience, but precious few of our workers stick around to 
develop it.

            Kids' Problems Worsening/Services Not Available

    What's worse, all this is happening while our children have 
much more complex needs, including violent behavior and 
hyperactivity. Many children on my caseload need therapeutic 
placement sites to help them adjust emotionally to being put 
into foster care. One of the most time-consuming tasks I face 
is securing the medical, psychological and psychiatric exams 
and diagnoses necessary to place a child in the appropriate 
therapeutic foster family, residential therapeutic group home, 
or psychiatric facility. Then, after I go through this process, 
many of these critical services have waiting lists and aren't 
available as quickly as we need them
    Children without these placements end up in our offices. 
For several weeks now Ive had a 12 year old foster child in my 
office during the day because he was expelled from school and 
his foster mother works. Ive been trying to get him back into 
school or into a therapeutic environment, but this is taking a 
lot of time. We've had kids in our offices until midnight 
because that's how long it took to find them a place to spend 
the night. They often return in the morning because there's 
nowhere else for them to go. This is a bad situation for these 
kids. It also means we cant effectively help the other 45 or 50 
children on our caseload.
    We also are facing an extreme crisis in attracting enough 
foster parents because more of our children have severe 
problems and more women are working outside the home. We always 
have had more difficulty placing older children, but now we are 
facing a new shortage of foster homes for preschool children, 
and an increased demand for child care in foster families with 
two working parents. Not only in Broward County but also in 
Palm Beach and other counties, foster parents take in as many 
as seven children at a time. These pressures cause burnout 
among our foster parents. Sometimes we cant locate a foster 
family at all.

                      Unsupportive Administration

    Even with all these obstacles, I would feel good about the 
work I do if I were getting helpful support from the 
Department. Years ago, Department administrators saw their role 
as enabling social workers to do their jobs well and standing 
by them when they made a tough call.
    Now, we feel like were under siege all the time. We cannot 
realistically do an effective job for all of the children for 
whom we are responsible. Inevitably some kind of priorities 
have to govern how we spend our time. Yet our management avoids 
this reality, placing this task on the front-line workers by 
default and failing to support them if something goes wrong. I 
am equally likely to be accused of neglect if I miss a report 
deadline or miss an appointment with a child. Management 
responds to problems by giving social workers additional 
paperwork. Investigations social workers feel like they're 
between a rock and a hard place, receiving criticism both for 
not removing kids quickly enough and for too quickly removing 
them.
    Our administration has been slow to invest in even basic 
resources to improve our efficiency or to improve the safety of 
our jobs. For example, I have to spend up to 15 minutes going 
outside and across the courtyard to another office just to copy 
a piece of paper. We finally got a fax machine just this month. 
Recently, management installed locks on our doors, but only 
after several disruptive incidents and pressure from front-line 
workers. I myself was threatened by a father at knifepoint as 
he took his child from my office. Management has yet to 
recognize the importance of cellular phones when we go into 
unsafe neighborhoods.

                           Proposed Solutions

    How can we start to address these problems? The response of 
our state government last summer was to pass a new law 
privatizing all foster care services in Florida--in other words 
to give someone else the operational responsibility.
    Privatization will not solve, and in fact may compound, the 
fundamental problems which I have discussed. By putting a 
private management company between the state and direct front-
line operations, it will be even harder to implement state 
policy consistently with adequate accountability.
    Other states have done a better job than Florida without 
resorting to privatization. For example, Delaware recently 
passed a law which mandates that caseloads cannot exceed the 
Child Welfare Leagues standards by more than two, and which 
also requires sufficient funding for hiring enough staff to 
stay within these standards. Connecticut also has established 
maximum caseload sizes.
    Instead of privatizing, Florida needs to give the child 
welfare system more funds to reach reasonable and safe caseload 
levels. This is not just a Broward County problem. I can say 
from my experience in Palm Beach that we need a lot more social 
workers, more money to pay foster parents, and more funding for 
the intensive services many of these kids need. (The State of 
Florida is eighth from the bottom in per capita state spending 
for child welfare according to 1996 figures from the Child 
Welfare League.) If we can lower caseloads and upgrade our 
equipment, we can finally get the chance to deliver quality 
services to the children and families we serve.
    But money is not enough. The Department and the press need 
to stop scapegoating front-line workers when a child is injured 
or dies. No one can focus adequately on doing a good job in an 
environment of fear. We need administrative support to do our 
jobs well, including supervisors available to help in tough 
cases. Social worker training needs to be revamped and 
expanded, especially for new child welfare workers. Right now, 
new social workers don't get enough out-in-the-field training 
and mentoring, which is absolutely necessary for them to 
competently take over cases.
    I found a real irony in a recent article in the Palm Beach 
Post which reported that
    a private agency slated to take over foster care on January 
1 has gotten cold feet because it wants immunity from lawsuits 
and assurances that the state will increase its payments at the 
same rate as the number of children coming into the system. In 
effect, the agency has admitted that, like the public sector, 
it will fail some individual children, and that it is concerned 
about not having enough money to serve adequately the children 
in its care. I will be very envious, I confess, if the funding 
guarantees requests are granted. If during my years with the 
Department we had received such reliable funding increases as 
our cases increased, I truly believe we would have a stable 
work force today and better outcomes for children.
    Thank you for your attention. I will be happy to answer any 
questions you may have.
      

                                <F-dash>

[GRAPHIC] [TIFF OMITTED] T0952.001

[GRAPHIC] [TIFF OMITTED] T0952.002

[GRAPHIC] [TIFF OMITTED] T0952.003

[GRAPHIC] [TIFF OMITTED] T0952.004

[GRAPHIC] [TIFF OMITTED] T0952.005

[GRAPHIC] [TIFF OMITTED] T0952.006

[GRAPHIC] [TIFF OMITTED] T0952.007

[GRAPHIC] [TIFF OMITTED] T0952.008

[GRAPHIC] [TIFF OMITTED] T0952.009

[GRAPHIC] [TIFF OMITTED] T0952.010

[GRAPHIC] [TIFF OMITTED] T0952.011

[GRAPHIC] [TIFF OMITTED] T0952.012

[GRAPHIC] [TIFF OMITTED] T0952.013

[GRAPHIC] [TIFF OMITTED] T0952.014

[GRAPHIC] [TIFF OMITTED] T0952.015

[GRAPHIC] [TIFF OMITTED] T0952.016

[GRAPHIC] [TIFF OMITTED] T0952.017

[GRAPHIC] [TIFF OMITTED] T0952.018

[GRAPHIC] [TIFF OMITTED] T0952.019

[GRAPHIC] [TIFF OMITTED] T0952.020

[GRAPHIC] [TIFF OMITTED] T0952.021

      

                                <F-dash>

    Chairman Shaw. Let me make one thing clear at this point, 
which I think is very important. And that is, to all the 
officials in Broward County and Tallahassee, all across the 
State of Florida, Federal dollars are available for training 
and maintenance payments on an open-end basis. If you have more 
children in foster care, the Federal share is ready and waiting 
as long as the State and local government puts up the matching 
money, and that matching money goes anywhere from 25 to 50 
percent. It is an extraordinarily generous open-end program 
that the Federal Government has. And really there is no excuse 
not to take advantage of that. We are talking about kids.
    Ms. Day.

   STATEMENT OF LINDA DAY, PRESIDENT, BROWARD COUNTY FOSTER 
                      PARENTS ASSOCIATION

    Ms. Day. Chairman Shaw, Mr. English----
    Chairman Shaw. Bring that microphone back just a little bit 
closer to you.
    Ms. Day  [continuing]. I would like you to close your eyes 
and imagine yourself at home with your friends and suddenly 
someone takes you by the hand and tells you that you are going 
with them, you have 5 minutes to fill a black garbage bag. What 
will you take? How will you say goodbye? Feeling the pain of 
not knowing is the reality of over 300 foster children that 
have passed through my home. My family have been foster parents 
in Broward County for more than 20 years. We are seeing more 
children physically, sexually and mentally severely damaged 
entering foster care.
    The first and most important issue is that we establish 
stability for our children by providing social workers that 
know their past history, follow them, and be there for them 
when they need them. Our children deserve to have social 
workers that have appropriate caseloads so they can devote the 
time needed to move these children quickly through the system. 
At this time, our caseworkers are carrying two to three times 
their normal caseloads and it becomes impossible for them to do 
their job. Because of the frustration to do the job correctly, 
many leave. I have been told by many they would have stayed but 
feared for the safety of the children on their caseload because 
they could not physically keep up with the current events 
happening in each case. We are in desperate need of more 
caseworkers to keep our children stable and safe.
    Children who have been sexually abused need intense therapy 
at the moment they come into care. They need to be placed into 
homes or facilities that have had training to meet their needs 
and not placed into regular foster homes with other children. 
Why make these children victims again or create new ones? We 
are putting our children and our foster parents at risk.
    It takes two working parents in most families to make a 
living and that includes our foster parents. If a child comes 
into care on Friday night, it is most likely that he may be 
moved on Monday morning because there is no day care available. 
Every move is damaging to our children. Why couldn't we 
incorporate day care in our foster care system so our children 
could stay in their first placement? Stability is the key to 
healthy children.
    Now tell me, how long would you stay up night after night 
trying to comfort a screaming baby going through cocaine 
withdrawal? Sometimes feeling beside yourself because you 
cannot stop the tremors of the pain gnawing in their little 
tummies. Or trying to reassure a 3-year-old that everything is 
going to be OK when they scream out in their sleep for their 
mommy. Our foster parents do this for ages 0 to 5 years for 
just $11.13 a day.
    How long would you keep a child that rips the screens out 
of your windows, peels the wallpaper off your wall, urinates in 
the corner of the room and tells you to shut up, you are not 
their mom, and there is always that threat of that child 
running away. As foster parents, you answer countless calls 
from school on your child's performance and behavior. Our 
foster parents do this for ages 6 to 12 years of age for just 
$11.45 a day.
    Dealing with normal teenagers is a task in itself. As 
foster parents, we are dealing with abused, neglected children 
who have already been burdened with all of the above baggage 
for years. Like with babies, you stay up night after night to 
make sure they are in their beds. You hear the pain of them not 
being with their families, or when they finally trust you, they 
tell you things that make your skin crawl. Our foster families 
listen to abusive language and have their belongings such as 
their cars, jewelry, and money taken. Our foster parents do 
this day after day for 13-year-olds and older for just $13.71 a 
day.
    When reading this statement to a friend, she was appalled 
because just the week before, she had boarded her dogs for just 
$12.50 a day.
    We need more foster homes, and I believe by having enough 
caseworkers, our foster parents could carry the load with their 
support. As it stands now, foster parents get burned out 
because they cannot reach a worker, there is no worker and when 
they need answers, it takes too long to get them.
    Many of our foster parents do not have health insurance. I 
have talked to many working professionals that said they would 
become foster parents but if they would retire, they would lose 
their health insurance. Why could we not offer health insurance 
to our foster parents?
    I guess what I am really trying to say is that we need to 
invest in our children now. Surely, it is going to cost, but 
what about in the future when these kids are in jail, on drugs, 
on the street, or making our loved ones victims? Why can we not 
invest for their future, our future, our children's future, and 
our grandchildren's future? Do we really want these troubled 
adults on the street with our families? Can you honestly say 
that you have done enough for foster care?
    [The prepared statement follows.]

Statement of Linda Day, President, Broward County Foster Parents 
Association

    Close your eyes and imagine yourself at home or with your 
friends and suddenly someone takes you by the hand and tells 
you that you are going with them, you have five minutes to fill 
a black garbage bag, what will you take, how will you say good-
bye. Feeling the pain of not knowing is the reality of over 
three hundred foster children that have past through my home. 
My family have been Foster Parents in Broward County for more 
than twenty years and we are seeing more children physically, 
sexually and mentally severely damaged entering Foster Care.
    The first and most important issue is that we establish 
stability for our children, by providing Social Workers that 
can give them the past history, follow them, and be there when 
they need them. Our children deserve to have Social Workers 
that have appropriate caseloads so they can devote the time 
needed to move the children quickly through the system. At this 
time our Caseworkers are carrying two to three times their 
normal case load and it becomes impossible for them to do their 
job. Because of the frustration to do the job correctly, many 
leave. I have been told that many would have stayed but feared 
for the safety of their children on their caseloads, because 
they could not physically keep up with the current events 
happening in each case. We are in desperate need of more 
Caseworkers to keep children stable and safe.
    Children who have been sexually abused need intense therapy 
at the moment they come into care. They need to be placed into 
homes or facilities that have had training that meets their 
needs, and not placed in regular foster homes with other 
children. Why make these children victims again or create new 
ones? We are putting our children and our Foster parents at 
risk.
    It takes two working parents in most family's to make a 
living and that includes our Foster parents. If a child comes 
into care on a Friday night it is most likely that he may be 
moved on Monday morning because there is no Day Care available. 
Every move is damaging to our children. Why couldn't we 
incorporate Day Care in to the Foster Care System so our 
children could stay in their first placement? Stability is the 
key in healthy children.
    Now tell me, how long would you stay up night after night 
trying to comfort a screaming baby going through cocaine 
withdrawal? Some times feeling beside yourself because you can 
not stop the tremors or the pain gnawing in their little 
tummies. Or trying to reassure a three-year-old that everything 
is going to be okay when they scream out in their sleep for 
their Mommy. Our Foster parents do this for ages 0-5 year olds, 
for just $11.13 a day. How long would you keep a child that 
rips the screens out of your windows, peels the wallpaper off 
the wall, urinates in the corner of their room tells you to 
shut up ``your not their mom'' and there is always the threat 
of that child running away. As Foster Parents you answer 
countless calls from school on your child's performance and 
behavior. Our Foster Parents do this for age's 6-12 year olds 
for just $11.45 a day. Dealing with normal teenagers is a task 
in itself. As Foster Parents we are dealing with severely 
abused neglected children who have already been burdened with 
all of the baggage from above for years. Like with babies you 
stay up night after night to make sure they are in their beds. 
You hear the pain of not being with their families or when they 
finely trust you they tell you things that make your skin 
crawl. Our Foster families listen to abusive language and have 
their belonging such as their cars, jewelry and money taken. 
Our Foster Parents do this day after day for 13 year olds and 
up for just $13.71 a day.
    When reading this statement to a friend she was appalled 
because the week before she had just boarded her dogs for just 
$12.50 a day.
    We need more Foster homes, I believe by having enough 
Caseworkers our Foster Parents could carry the load with their 
support. As it stands now our Foster Parents get burned out 
because they can not reach a worker or there is no worker and 
when they need answers it takes to long to get them.
    Many of our Foster Parents do not have health insurance. I 
have talked to many working professionals that said they would 
become Foster Parents, but if they would retire they would lose 
their health insurance. Why couldn't we offer health insurance 
for our Foster Parent's?
    I guess what I'm really trying to say is, that we need to 
invest in our children now. Sure it's going to cost but what 
about in the future when these kids are in jail, on drugs, on 
the street, or making our loved ones victims? Why can't we 
invest for their future, our future, our children's future and 
our grandchildren's future? Do we really want troubled adults 
on the streets with our families? Can you honestly say you have 
done enough for Foster Care?
      

                                <F-dash>

    Chairman Shaw. Thank you.
    Ms. O'Day.

    STATEMENT OF KATHRYN R. O'DAY, VICE PRESIDENT, PROGRAM 
 DEVELOPMENT AND EVALUATION, CHILDREN'S HOME SOCIETY OF FLORIDA

    Ms. O'Day. Thank you. Linda and I decided that the Days 
have it today.
    Chairman Shaw, Mr. English, thank you for the opportunity 
to address the Subcommittee.
    The child protection system in Florida is under pressure to 
deliver critical results with very limited resources. In my 
written materials, I gave you some of those indications, I will 
not read them to you again. In response to this challenge, the 
Florida legislature last year did pass a bill to privatize 
foster care and related services, to transfer these 
responsibilities from the Department of Children and Families 
to competent community-based lead agencies. This is an 
important step toward establishing public-private partnerships 
and it needs your support to help it get on its feet and to 
keep it going.
    I want to tell you about two things today. I want to give 
you an example of a private-public partnership that we 
initiated here in Broward County with Children's Home Society 
that has had tremendous benefits to our foster care system. And 
I want to make some recommendations to you about Federal 
funding to help support those initiatives.
    About this time last year, I was contacted by a member of 
the Allegiance Health Care Corporation because they were 
opening corporate offices in Weston and they wanted to be a 
good community corporate citizen and to fund a community need. 
We immediately identified the need for foster care as being of 
critical importance to Broward County and the Allegiance Health 
Care Corp. gave us some funding, the United Way added to that 
funding and with about $100,000, we were able to hire some new 
workers and to partner with a community-based organization 
named Child SHARE. Child SHARE goes out into the churches and 
recruits foster parents who have a sense of mission and want to 
give back to the community, and then builds a support system 
around them that includes resources, respite care, babysitting 
and all kinds of other recognition.
    We hoped to open 40 foster homes in 2 years. Since March 
1998, we have been able to open 30 new homes, we anticipate 
having 49 new homes by the time we finish our next class this 
month in training foster parents. The state Department of 
Children and Families estimates that we need over 400 new homes 
here in Broward, so this is a tremendous addition to our foster 
care system. I am firmly convinced that these are the kinds of 
solutions that we are going to need to make a difference for 
children with the resources that we have.
    Just like our foster parents hold us to high accountable 
standards, Federal funding needs to hold us to high accountable 
standards and we need to be able to work within those 
guidelines and to ensure that children in foster care get what 
they need. However, the current regulations for funding are in 
need of greater flexibility to allow States to apply Federal 
funding toward outcomes which are identified as critical by 
that State. Currently, States can capture reimbursement of 
eligible expenses through a process which requires meeting 
various categorical eligibility characteristics. Linda Radigan 
alluded to this earlier for you. We can get around those 
requirements with waivers but they typically are cumbersome and 
take a long time to accomplish. One of the problems with 
negotiating for privatization in child welfare is that those 
regulations are not geared to private agencies and that is part 
of the problem with the agency in St. Petersburg who is trying 
to negotiate a contract with the department to initiate 
privatization on January 1, 1999.
    Even where solutions can be identified statewide and that 
have long-range solutions attached to them, we cannot replicate 
projects in other parts of the country, so if we see an idea 
that is working somewhere else, we cannot see if it is going to 
work in Florida because each project has to be unique.
    I do not have time allotted to me today to give you a lot 
of details about Federal financing, but I would like to offer 
you some guiding principles to consider as you are working on 
changes to Federal funding and mandates. Please consider 
supporting private-public partnerships with particular emphasis 
on matching private community funds that pay for system reform. 
It is important to ensure that there is enough funding for core 
services and let private dollars pay for enhancements to the 
system and help initiate new kinds of solutions.
    Additionally, consider a waiver process that is more 
localized and allows for replication of existing projects in 
part or in whole. A process is needed where reviews and 
approval can be completed in as short a timeframe as possible, 
depending on the scope of the exemption requested.
    Allow States to identify targets; for example, if we wanted 
to reduce the number of children per 1,000 requiring out-of-
home care, and then build funding around systems that support 
the achievement of that outcome.
    It is important that we begin to realize that child welfare 
is really a public health issue and needs to be treated from 
that model where you look at the prevention as well as the 
intervention if we are going to find a long-term solution to 
this.
    I thank you for taking your time today to consider these 
important issues. I am pleased to see the recent focus locally 
and at the State and national level on the serious problems 
which affect so many of our youth. I am confident that as we 
continue to work together, we can build new approaches and 
systems to make life better for children who cannot live at 
home.
    [The prepared statement follows:]

Statement of Kathryn R. O'Day, Vice President, Program Development and 
Evaluation, Children's Home Society of Florida

    Thank you for the opportunity to address the Committee. We 
welcome you to Ft. Lauderdale, and appreciate your attention to 
the important issue of child protection. To introduce myself, I 
am Kate O'Day, Vice President of Children's Home Society for 
Program Development and Evaluation. I am a Licensed Clinical 
Social Worker in the State of Florida, and began my career in 
child welfare in 1980, working with a unit in one of our local 
police departments which dealt every day with child abuse and 
neglect. Over the past eighteen years, I have worked and 
managed programs and services in family preservation, runaway 
shelters, adult and adolescent substance abuse, adoptions, and 
foster care, among others. My career has spanned both 
government service and work in the not-for-profit sector. My 
work with Children's Home Society has included directing the 
programs and services here in Broward County for the past four 
years. Currently, my position is responsible for addressing 
program and service needs in our communities throughout the 
State of Florida and to ensure that our services are having the 
intended impact on the clients with whom we serve.
    The child protection system in Florida is under tremendous 
pressure to deliver critical results with limited resources. 
Child abuse reporting alone in Florida has increased by 15.5% 
since fiscal year 1993/94. There were approximately 3 reports 
of abuse/neglect for every 1000 children in Florida last year, 
which resulted in 121,777 reports to Florida's Abuse Hotline. 
After investigation, 79,641 of these children were identified 
as abused or neglected, and 12,000 of these were served in 
emergency shelter. During this same period, 12,632 children 
were served in board paid foster care, which again has seen an 
increase in its numbers; 7.8% more children this year than two 
years ago. The numbers of children in residential group care 
has increased by 36% over the same time period, with 2,427 
children being served last year. Although the goal for many of 
these children is family reunification, many never return home 
and are eventually adopted out of the system. Statewide, 11,158 
children received adoption subsidies in fiscal year 97/98, an 
increase of 16% over the past two years.
    This hearing is being held here in Broward County because 
of the crisis we are facing with providing for children in out 
of home care. During the last fiscal year, the number of 
children in foster care in Broward County alone increased by 
278 children--from 1,145 children on July 1, 1997 to 1,423 
children on June 30, 1998. Our state Department of Children and 
Families has found serious problems in addressing these 
increased needs, and the results have been that children are 
residing in overcrowded and unsafe conditions in many cases, 
and not receiving the level of care they need and deserve.
    In the wake of concerns over growing needs for service, 
increased demands on the state budget, and continuing high 
profile cases in which children have died in spite of repeated 
involvement with the child protection system, Florida's 
legislature last year passed a bill to privatize foster care 
and related services, transferring these responsibilities from 
the Department of Children and Families to competent, 
community-based agencies. Congress has also responded to the 
national conditions of child protection with important 
legislative reforms, which limit the time of children in care, 
among other things. If we are to succeed with this important 
initiative for privatization in Florida, and deliver services 
which meet the mark for Federal requirements, we will have to 
work together in new ways to reform our thinking at every level 
in the child protection system, from case work and service 
provision, to data tracking and outcome measures, and most 
importantly to this Committee, to resource allocation and 
funding. Furthermore, I am convinced that we must find the will 
and the way to effectively address the growing problem of child 
abuse only through a true partnership between the public and 
private sectors. These productive working relationships between 
governmental entities and the communities and people they serve 
require your support to help them get off the ground and to 
succeed.
    Building a system which accomplishes the goals of child 
protection and family preservation is our collective 
responsibility. I have come here today to address you on two 
important issues which need to be considered in building a 
better child protection system. First, I want to tell you about 
an important private-public initiative, which has produced 
significant results here in Broward County for foster children. 
Secondly, I would like to invite you to consider increased 
flexibility in some aspects of Federal funding of adoption and 
foster care which would help those of us who are in the 
trenches working to solve these problems.
    Children's Home Society of Florida has been a provider of 
licensed foster care in Broward County since 1967. By January 
of 1998, we were operating 21 licensed foster homes. Funding 
for these services was provided by a mix of private donations, 
the United Way, and ``pass through'' foster care board payments 
from the Department of Children and Families to the foster 
families.
    In late 1997, a member of the Allegiance Health Care 
Corporation staff contacted one of the members of our local 
Board of Directors here. As they were opening new offices in 
Weston, the Baxter-Allegiance Foundation wished to identify a 
community need which it could then lend assistance to through 
funding. A conference call was arranged between the Allegiance 
staff, the Foundation Executive Director, and mysel. We 
identified the need for more foster homes in Broward County as 
being of critical importance, and agreed to submit a proposal 
for funding. In March 1998, we were awarded a two year grant of 
$98,291; $64,832 for the first year and a matching challenge of 
$33,459 for the second year. We proposed to hire two new foster 
family care workers and expand our capacity by about 40 homes 
over the two-year period. At about the same time, the local 
founder of Child SHARE, (which stands for Shelter Homes A 
Rescue Effort), approached us. We formed a partnership with 
Child SHARE of South Florida to recruit and assist foster 
family homes for this expansion. Simultaneously, we applied to 
the United Way to increase our funding and support the 
expansion by Baxter-Allegiance and the partnership with Child 
SHARE. The community, through the United Way, responded by 
increasing our funding for family foster care by 42%, or 
$41,573.
    The results have surpassed even our most optimistic 
projections. Since March 1998, we have added over 30 new foster 
family homes (for a current total of 55) and anticipate serving 
70 at the completion of our next foster family training class 
this month. Many (but not all) of these families have come to 
us through the partnership with Child SHARE. This will more 
than meet the goals we identified to the Foundation for a two-
year period, less than one year into the project. A total of 
$106,405 in private funds have made this possible. With our 
District Administrator estimating a need for over 400 new homes 
in Broward County to appropriately care for our children, 49 
new homes is a very welcome addition to our system of care.
    This is a true illustration of public-private partnerships, 
and allow me to tell you a little about how that partnership 
works. Child SHARE is an affiliate of the California based 
organization, which recruits and supports foster family homes 
through active involvement in local churches. Families which 
are recruited in this way are offered an extensive array of 
supports within their church community, including support 
groups, respite care, baby-sitting, furniture and equipment, 
and recognition and appreciation for what they are doing for 
all of our children. Child SHARE provides that community-level 
organization to raise awareness about the need for foster 
homes, recruit potential families, and give them an environment 
which embraces them in their efforts once they become licensed 
and have children in care with them. Children's Home Society's 
role in the partnership is that of a professional Foster Family 
Agency, which evaluates the potential foster homes, does all 
the background screens and ensures the family meets all the 
standards for licensing, and then provides professional 
casework as families are matched to children and receive the 
services they need--such support with the school system, health 
care, and counseling or recreational needs. Children's Home 
Society also provides a free monthly clinic to all of its 
foster families where well care services are donated by a local 
pediatrician, as well as ongoing training and support groups 
for problem solving with family logistics and parenting foster 
children.
    People connections have made this partnership work. It so 
happened that one of Children's Home Society's foster families 
for many years was also a member of the congregation sponsoring 
the Child SHARE efforts. We arranged for a program to be 
presented in the evening to church members with a panel 
including foster parents, professional foster care staff, an 
adult child of foster care, the pastor, the Child SHARE staff 
member, and myself. The response from the congregation was 
overwhelming, and has not stopped. This experience has firmly 
convinced me that the community will support solutions it sees 
as effective, and when the results can be seen and touched, as 
with a child who is blossoming in foster care. The dedication 
of these families who come forth out of a sense of mission and 
the need to care for those in need is an inspiration to all of 
us who work with them.
    Just like our foster parents, federal funding mandates need 
to hold all of us to a high quality of care as we work with 
children who cannot live at home. Standards need to be set and 
enforced to ensure that children get what they need in a timely 
fashion. However, the current regulations for funding foster 
care and adoption are in need of greater flexibility to allow 
states to apply Federal funding towards outcomes which are 
identified as critical by that state. Currently, states may 
capture Federal funding for reimbursement of eligible expenses 
through a process which requires meeting various categorical 
eligibility characteristics. States can qualify for exceptions 
to these requirements through the waiver process, but this 
poses problems itself in terms of time and flexibility. Waivers 
typically take more than a year for approval, which may not be 
responsive enough in a situation such as we have in Florida, 
where contract negotiations are currently underway for the 
first implementation of privatization to be implemented on the 
West Coast in District 5 by January 1, 1999. As Federal funding 
regulations impact on the ability of a qualified community-
based lead agency to draw down Federal money, there is no route 
to a short term or temporary exemption process. Even where 
solutions can be identified statewide and in the long-range, 
the waiver process only allows for demonstration projects in 
each state, each of which must be unique. This means that a 
good idea in one area of the country cannot be replicated and 
compared with results elsewhere.
    It is far outside the scope of five minutes of testimony 
before you today to outline a plan for making Federal funding 
more flexibile and exceptions or waivers more timely and easily 
granted. But I would like to offer you some guiding principles 
to consider as you are working on changes to Federal funding 
and mandates. Consider supporting private-public partnerships, 
with particular emphasis on matching private community funds 
that pay for system reforms and to support basic program 
operations. I have found that donors are attracted to seeing 
their monies matched by other private donors as well as 
government sources. Additionally, consider a waiver process 
that is more localized, and allows for replication of existing 
projects in part or in whole. A process is needed where reviews 
and approvals can be completed in as little as thirty to sixty 
days, depending on the scope of exemption requested. Allow 
states to identify targets, (such as reducing the number of 
children per 1,000 requiring out of home care) and then build 
funding around systems which support the achievement of that 
outcome, rather than ensuring that procedural safeguards are in 
place for the current system.
    I thank you for taking your time today to consider these 
important issues. I am pleased to see the recent focus, locally 
and at a state and national level, on this serious problem 
which affects so many of our youth. I am confident that as we 
continue to work together, we can build new approaches and 
systems to make life better for children who cannot live at 
home.
      

                                <F-dash>

    Chairman Shaw. Thank you. And our final panelist, Eileen 
Donais, we saved you until last because we wanted to end on a 
positive note.

STATEMENT OF EILEEN DONAIS, EXECUTIVE DIRECTOR, HANDY (HELPING 
 ABUSED AND NEGLECTED DEPENDENT YOUTH), INC., FORT LAUDERDALE, 
                            FLORIDA

    Ms. Donais. I will try my very best to do that. Thank you.
    Thank you, Chairman Shaw and Mr. English, for inviting us 
here today. My name is Eileen Donais, I am executive director 
of HANDY, an acronym for Helping Abused, Neglected Dependent 
Youth. We are a 501(c)(3) nonprofit Broward corporation and our 
mission statement is as follows: We are dedicated to breaking 
the cycle of child abuse by helping the abused, neglected, 
dependent youth of Broward County who are placed in protective 
custody by the court. We provide emergency funds and network to 
fill the cracks in meeting their needs for items such as food, 
clothing, eyeglasses, specialized medical and dental services, 
scholarship and educational opportunities.
    The organization has a very large and active board, over 
500 members and an advisory council consisting of three judges 
and several other prominent community leaders.
    Private fundraising, donations, and private grants generate 
our total budget. Hundreds of thousands of volunteer hours are 
contributed by this dedicated group of individuals who care so 
genuinely about the children we serve. HANDY was established in 
1985 as the nonprofit arm of the State Guardian Ad Litem 
Program to accommodate needs identified and unfulfilled by the 
State and to provide a support system for them and State 
caseworkers.
    I would like to cite some examples that further define this 
statement.
    A 15-year-old young man is residing in a therapeutic 
treatment program in Jacksonville. His mother was stricken with 
a brain aneurysm and given only a very slight chance of 
recovery. Immediate funding was not available from the 
department. HANDY provided an airline ticket for him so that he 
would have those last fleeting moments here with her before she 
passed on.
    The HANDY free clothing bank has become a total necessity 
to this community of children and families. Referrals come to 
us from 25 agencies. We are the only agency in Broward County 
to fill this tremendous need. The majority of children brought 
in off the street have nothing, as we know, but the clothing on 
their backs and our department store is here to truly help 
them. We furnish everything at no charge, from infant sizes to 
adult clothing, shoes, baby furniture and supplies, all donated 
by this huge wonderful community at large. Families are able to 
return at least four times per year. HANDY's funds are 
generously used to stock new undergarments and socks. During 
our past fiscal year, we served 4,900 clients at a used 
clothing store value of approximately $58,000. With a minimal 
staff, members, friends, corporate employees, and high school 
students also provide 5 days of staffing for this facility.
    It is particularly significant to note that during the past 
6 months, we have seen an increase of at least 50 percent in 
requests for beds and food. In the interest of the child's 
safety and well-being, HANDY is allocating dollars for both of 
those needs. Local merchants are supplying beds at deeply 
discounted prices, and HANDY, being a member of the Daily Bread 
Food Bank, is able to help families stock up on necessary 
foodstuffs and Publix gift certificates to supplement with 
something as simple as milk and bread for the weekend.
    A longstanding partnership has developed with Lens Crafters 
and their Gift of Sight Program, where children can have an 
eyeglass prescription filled at no cost. Our board has two 
medical liaisons that assist in finding pro bono help for 
special medical and dental procedures. Some of that is extended 
care, such as a corneal transplant and a severely infected 
tattoo on a beautiful young lady. It is not uncommon for one of 
our dependency judges to phone us from their courtroom 
requesting emergency assistance to avoid eviction, restore 
electricity, or whatever crisis that may be affecting the 
child's quality of life. Of course, we are there to take action 
immediately.
    HANDY is very committed to helping our children languishing 
in school to become better students and prepare them to receive 
a higher education to live in this global world. Our mentor 
programs for adolescents and teens is thriving and growing. In 
collaboration with the Broward County School Board and Broward 
Community College, this important project will continue to help 
and motivate these at-risk teens.
    The long-term goal of HANDY is to counterbalance the 
current decrease in DCF Prgram funding for the increased number 
of abused and neglected children entering the court system. It 
is our fervent resolve to expand HANDY programs and services to 
serve each child that needs assistance. It is through this 
joining hands of public-private partnership that we can truly 
make a difference, one child at a time.
    To every Federal-elected official, government official, 
State official, we would encourage you to speak on our behalf 
and on behalf of all of the children of the important 
development of these public-private partnerships.
    Thank you very much.
    [The prepared statement follows:]

Statement of Eileen Donais, Executive Director, HANDY, Inc., Fort 
Lauderdale, Florida

    Handy, Inc. was established as a non-profit 501 c3 
organization in 1985 by a small group of concerned citizens who 
saw the need to raise funds to fill a void that would help to 
complete the vision of the State Guardian ad litem program. It 
remained small until 1991 when Broward County community leaders 
created a membership organization and enlarged its scope. Today 
HANDY provides emergency funds and services that ``fill the 
cracks'' giving these children, who are wards of the state, a 
fighting chance to become whole again.
    HANDY has received numerous awards, such as the J.C. Penney 
Golden Rule Award to founder Ed Pudaloff. Mr. Pudaloff also 
received the ``Spirit of Excellence Award'' last year from the 
Miami Herald. After founding the auxiliary, Kathie Jackson was 
named Broward County Child Advocate of the Year in 1995 because 
of HANDY's accomplishments.
    HANDY is unique to Broward County as it is the only 
organization solely designed to work with the entire population 
of children who have fallen victim to abuse and neglect, as 
well as network with other organizations and individuals in our 
community, which serve them. In recent years, HANDY has been 
able to not only fulfill the emergency needs of these children, 
but also improve their low self-esteem and enhance their lives 
through various events and incentive-based educational 
programs.
    The mission statement of HANDY is ``We are dedicated to 
breaking the cycle of child abuse by helping the abused, 
neglected, dependent youth of Broward County who are placed in 
protective custody by the court. We provide emergency funds and 
network to ``fill the cracks'' in meeting their needs for items 
such as food, clothing, eyeglasses, specialized medical and 
dental services, scholarship and education opportunities.'' 
Following is a comprehensive outline of how HANDY accomplishes 
this mission.
    The HANDY membership is over 500 and is open to any person 
in the community for minimal dues of $25 per year, or the 
option of a lifetime membership, which continues to grow. The 
HANDY Board is a cross section of working men and women and 
community volunteers who have diverse educational, profession 
and economic backgrounds. The Advisory Council includes three 
judges and several prominent community leaders, an accountant 
and legal advisor.
    All funding for HANDY programs and services comes from 
dues, fundraising activities and events, Corporate support, and 
private foundation grants. We do not receive any state or 
federal funding. It is an efficiently run organization with a 
minimal paid staff so that as much money as possible continues 
to be directly distributed to the children. Total revenue from 
private fundraising for the fiscal year ending July 31, 1998 
was $543,943. In addition, hundreds upon thousands of volunteer 
hours have been donated by HANDY members to raise funds and 
assist with social outlets for the abused and neglected 
population we serve.
    The outline that follows encompasses the broad and in-depth 
services and programs that Handy offers and funds on behalf of 
the adjudicated dependent children, and those advocating on 
their behalf.

                           PROGRAM SERVICES:

    <bullet> The HANDY ``ABC'' Birthday Club matches member 
sponsors with Guardian ad litem children to recognize their 
special day. Most of the youngsters have never received a gift 
yet alone recognition. It is a totally self-sustaining program 
facilitated by member's volunteer hours.
    <bullet> Housing dollars are expended on an emergency basis 
for rent as necessary to ensure that a child has a safe place 
in which to live. Oftentimes the caretaker has fallen on an 
unavoidable hardship or illness. This funding is offered as a 
one-time temporary measure to keep a family intact while 
evaluating the overall future situation by state caseworkers.
    <bullet> Emergency funds are also provided for utility, 
water and telephone bills after evaluating the immediate need 
and lack of funds from any other source. The criteria for such 
expenditures are largely based on the information in the 
previous paragraph. HANDY does have a ``networking'' provision 
in place with Florida Power & Light for serious situations that 
arise.
    <bullet> Until the passage of recent legislation, HANDY has 
provided the funds for the State Adoption Filing Fee so that 
any family willing to adopt a child in their custody would not 
encounter expenses that may preclude an adoption decision. 
These fees have been refunded to us once finalization has taken 
place, but had we not ``stepped up to the plate'' for this one, 
it is reasonable to expect that perhaps that adoption would not 
have taken place.
    <bullet> The ``Holiday Wish List'' specifically designed to 
grant the special wish of a Guardian ad litem child is one of 
the largest and significant undertakings of the entire year. 
HANDY member sponsor children, corporate donors take hundreds 
of wishes, and community individuals step in to help this 
cause. Each child receives that ``special something'' that 
their guardian has discussed with them, including bicycles for 
those deemed most necessary.
    <bullet> Beds and cribs are in crisis need at this time. As 
the shortage of foster homes continues to prevail, more and 
more children are being placed with relatives or caregivers who 
themselves are very needy. HANDY is working with several local 
companies who are supplying and delivering this basic necessity 
at nearly wholesale prices. Furniture donations are also passed 
along to families in crisis. Special equipment is also 
purchased as needs are identified by the Guardian ad litem or 
others involved in assessing the child's needs.
    <bullet> Medical, dental and eyeglass needs are fulfilled 
whenever possible and for the most part, pro-bono professionals 
are sought out to assist with this need. While Medicare dollars 
should be the proviso that is available to the children, many 
procedures are not covered by this insurance. The HANDY Board 
has two medical liaisons who ``network'' in the community to 
find this important assistance.
    <bullet> Nutritious food is oftentimes not available when 
children are placed with a relative or other caregiver. HANDY 
is a member of the Daily Bread Food Bank and our volunteers 
help Guardians and caseworkers to receive bulk food. Oftentimes 
this is then supplemented with local food store certificates 
for items such as milk and fresh produce.
    <bullet> The HANDY free Clothing Bank has become a total 
necessity to this community of children and families. Referrals 
come to us from 25 resources. There is no other agency in 
Broward County to fill this tremendous need. Abruptly removed 
from an abusive or neglectful situation, children are often 
taken into custody with only the clothes on their back. When 
placed in shelter or foster care, the state provides only $15 
for emergency clothing and personal items. If a child is moved 
to a new placement, more often than not, their total belongings 
fit into a small trash bag. Our ``department store'' furnishes 
everything at no charge from infant sizes to adult clothing; 
shoes, baby furniture and supplies, all donated by the 
community at large. HANDY funds are generously used to stock 
new undergarments and socks. One full time person, and part 
time help staff this facility. A huge member volunteer staff 
assists weekly, as do corporate employees and high school 
students receiving community service hours. During our past 
fiscal year, we served 4,900 clients at a used clothing store 
value of $58,000.00. HANDY leases a 3,200 sq. foot facility in 
downtown Ft. Lauderdale only minutes from the County 
Courthouse.
    When HANDY is unable to meet a need, for example, tennis 
shoes, we provide gift certificates from local discount stores. 
This service is also provided for items such as school supplies 
and household goods.

                 EDUCATIONAL OPPORTUNITIES & SERVICES:

    HANDY Saturday S.T.A.R.S. (Steering Teens Toward Academic 
Rewards & Success) is a tutoring program, which targets the 
most critical age level, middle school and high school 
students. Each student is matched with a college student from 
our local universities. The tutors are contracted by HANDY to 
provide at least one hour of personal tutoring in the child's 
school on a weekly basis. The success of this program has been 
aided by collaboration with the Brossard County School Board 
and Brossard Community College. A partnership with the college 
employs our Program Administrator. Saturday field trips are 
arranged on a monthly basis. The children regularly participate 
in the ``Challenge Ropes Course'' to motivate them and raise 
their level of self-esteem. Other field trips include community 
service projects and field trips exposing the children to 
future job opportunities. The enrollment has doubled this past 
year, and a continual waiting list exists as their child 
advocates nominate them for this empowering program.
    <bullet> Scholarships for college and vocational training 
are awarded monthly to any child who has ever been under court 
supervision. Interviews of prospective recipients take place 
monthly and HANDY also assists each student in reviewing their 
total financial aid package, e.g., Peel Grants, foster care 
tuition waivers. A cross section of dedicated community leaders 
serve on this committee and their expertise and contacts are 
invaluable to the student.
    <bullet> ``Computers for Kids,'' is a new project this 
year, whereby we are seeking donations in an effort to put 
computers in the homes of needy children who would benefit from 
the tutorial help and follow up to school computer training. 
This is now considered an essential part of their overall 
education. It is also our goal to supply a computer to each of 
our local college students to ease the burdens they face 
everyday while trying to work and go to school.
    The HANDY Summer Camp Program offers opportunities for 
local day camp and sleepover camps located throughout the 
State. Each and every child nominated by the Guardian ad litem, 
Caseworkers, or therapists is considered for an appropriate 
placement. This program is deemed as extremely important to a 
child's social development and interpersonal relationships. 
Camp counselors also become outstanding role models. HANDY 
receives many scholarships for camping programs and also 
allocates huge sums of money to insure its success. More than 
300 children had this wonderful experience in the summer of 
1998.
    <bullet> School field trips, graduation gifts, tickets for 
prom parties (items that most children take for granted) are 
also funded by HANDY when a request is made, and provided the 
person advocating for the child feels that it is a deserving 
gift.

                           SOCIAL ACTIVITIES

    The HANDY membership has always believed that it is 
important for the Guardian ad litem and children they represent 
to participate in as many social activities as possible. These 
opportunities benefit the communication between those involved 
and certainly enhance the child's social skills. When a State 
Supreme Court order evolved that no longer permitted a Guardian 
ad litem to transport children in their automobile, HANDY was 
undaunted in keeping these activities on track. HANDY now 
contracts private charter buses, staged at various county 
locations to transport the children and guardians to the 
activity. Some of these activities include--
    <bullet> ``Back to School Shopping Spree'' HANDY members 
sponsored a child to receive a $100 local mall certificate and 
the volunteers arranged for fantastic store discounts. A huge 
pizza party was held for over 300 in attendance. After all, 
these kids do like to ``look like the next guy.''
    <bullet> The 7th annual Lighthouse Point Yacht & Racquet 
Club Christmas Party will treat 65 youngsters ages 5-10 to an 
unforgettable day. Sponsored by fundraising of the ladies of 
Lighthouse Point Auxiliary and club management, the children 
will ride aboard yachts in their own Boat Parade, partake of a 
delicious lunch, entertainment, and best of all they will 
receive a brand new bicycle, compliments of JM Family 
Enterprises.
    <bullet> Another highlight for the children is the 
attendance of many dependency court judges, who join in the 
festivities and fun along with the children.
    <bullet> The annual Easter Picnic hosted by Florida Power & 
Light at their Port Everglades picnic grounds. A huge staff of 
HANDY volunteers hosts a fabulous day including a petting zoo; 
DJ, carnival rides, lunch, and their very own custom made 
Easter basket. Hundreds sign up well in advance and it is 
interesting to note that this is often the perfect opportunity 
for siblings to see one another, since they may live in 
different homes.
    <bullet> Other ongoing Children's Activities include--
Florida Marlin's Season Tickets, Museum of Discovery & Science 
Imax Theater, Green Glade Ranch Hoe-down & Barbecue, Dolphins 
Football Training Camp, Grand Prix Racecourse
    The long term goal of HANDY is to counter-balance the 
current decrease in DCF program funding for the increased 
number of abused and neglected children entering the court 
system. It is our fervent resolve to expand HANDY programs and 
services to serve each child that needs emergency assistance, 
educational help, and social outlets that will help enrich 
their lives.
    It is through this joining hands of public-private 
partnership that we can truly make a difference . . . . . one 
child at a time.
      

                                <F-dash>

    Chairman Shaw. Eileen, thank you very much.
    Mr. English.
    Mr. English. Thank you, Mr. Chairman.
    This panel has painted a detailed and in some ways very 
grim picture and I wonder if I could prevail on them to amplify 
on their testimony.
    Starting with Mr. Talenfeld, I was intrigued by your 
testimony, and can you tell me, are you suggesting that the 
Federal child abuse definition excludes child-on-child sexual 
abuse? And do you know specific instances where the law itself 
was an obstacle to identifying this kind of abuse?
    Mr. Talenfeld. Florida has not implemented the Adoption and 
Safe Families Act in a manner which would include child-on-
child sexual abuse as part of the type of referrals that are 
mandated to its central abuse registry. I can tell you that to 
obtain this information has been anecdotal, it has been based 
upon assignments from judges and court orders to represent 
these children that have been injured in care. And I wanted to 
alert your attention to the fact that we do not believe the 
States are gathering this information. None has been reported, 
to our knowledge, accumulating these data, to have any idea as 
to what percentage of the number of children in care have been 
victims of this type of abuse.
    Mr. English. Have you had or do you know of any specific 
instances where a centralized child abuse registry would not 
take action on this type of complaint?
    Mr. Talenfeld. The answer to that question is corrective. 
If you would dial the numbers 1-800-96ABUSE and would not 
allege that a caretaker is at fault with respect to the child-
on-child sexual abuse at hand, they would not receive your 
complaint.
    Mr. English. Is your concern that reports of this type of 
abuse are not made or that they are not investigated?
    Mr. Talenfeld. There is no direct policy, at least at the 
State level in Florida, which mandates the centralized 
reporting of these abuses. So we believe in many cases, these 
are crimes that take place at night, that maybe a caretaker may 
have knowledge of, they do not know where to go. But the 
Journal of the American Medical Association points out in this 
month's article that most of these complaints are very 
sensitive, many of them go directly to law enforcement 
agencies, and there is no centralized place to receive them. We 
believe that CAPTA should mandate that these reports from 
whatever agency, from whatever source, go to the centralized 
agency because they are so hard to receive when they do come. 
And we need to have that capacity to not only identify the 
victims, but the perpetrators, to obtain treatment for both.
    Mr. English. Ms. Meyer, one might infer from the testimony 
that an important provision of the Adoption and Safe Families 
Act is to ensure that the safety of the child is the paramount 
concern and investigating allegations of maltreatment is being 
ignored. Do you see a continuing overemphasis on making every 
effort to keep families together even at the expense of a 
child's safety?
    Ms. Meyer. In the experience of the Guardian Ad Litem 
Program and some of the cases that I described, the family 
preservation apparently seems to be the goal. I think Judge 
Kearney mentioned the 1-hour training video. Perhaps it is a 
training issue that needs to be addressed. It is probably more 
likely than not that a lot of the investigators who are out 
there in the field may not be aware of this recent legislation, 
may not be aware that the goal has been switched now to the 
safety and well-being of children. So it is disheartening to 
see it; however, I believe that the training of these 
individuals needs to be implemented immediately so that they 
are aware that there has been this shift and that they see that 
these children need to be the focus. But the experience has 
been that at this point, there are lots of cases that it is 
just not.
    Mr. English. Ms. O'Day, in your experience, how has the 
passage of the Adoption and Safe Families Act and the 
interethnic adoption provision changed the practice of child 
welfare in your agency? Specifically, do you see a change in 
social work practice and is concurrent planning increasingly 
used to plan for family reunification and at the same time for 
adoption?
    Ms. O'Day. Well, let me answer you. We have always tried to 
match children with families, whatever those characteristics 
might be, that would provide best for the children's needs. We 
have never been looking at demographic characteristics, for 
example, to make those matches. So I would not say it has 
tremendously impacted our adoption practice, but I would say it 
probably has more in the public sector.
    To talk about reunification, you have to talk about 
concurrent case planning, which is what is needed to fulfill 
the Federal time guidelines. This means that when a child comes 
into care, you immediately begin intensive services with the 
biological family to ensure that they understand what tasks are 
before them to get their children returned to them, while at 
the same time you prepare a well-trained foster home that is 
prepared to make a permanent commitment to that child if it 
becomes necessary. So you've got both tracks going at once.
    Previously you would wait to see if the biological family 
would fail out of their case plan and only then would you begin 
thinking about permanency. With concurrent case planning, you 
begin thinking about permanency from day one. But you have to 
afford biological families every opportunity to succeed because 
children really would rather live with their biological 
families than with a substitute family.
    Mr. English. Mr. Chairman----
    Ms. O'Day. I am sorry--we have a program called Homeward 
Bound that does this. We start visits between the biological 
family and the child from the day that they are removed and 
encourage a lot of contact, which tends to make the biological 
families do better. When the biological family cannot meet 
their case plan, then we are prepared to go forward with 
permanency.
    Mr. English. Mr. Chairman, you have been very generous in 
allowing me time. I would like to yield to you, I know you 
probably have quite a few questions.
    Chairman Shaw. Ms. Loehndorf, how much training have you 
received?
    Ms. Loehndorf. It is very hard for me to tell you exactly. 
I have been with the agency since June 3, 1963. So I have had a 
lot on the job and a lot more than a lot of the younger ones.
    Chairman Shaw. How typical are you?
    Ms. Loehndorf. Very untypical.
    Chairman Shaw. There is a huge turnover, I assume.
    Ms. Loehndorf. Yeah, in my unit right now, there are two or 
three slots that have just been revolving doors. The counselors 
that were trained, a couple of them quit before they even 
finished their training once they found out what they were 
really going to have to do. We have got two that are literally 
in training right now, there are only two of us that have been 
in that unit for a long time--over 3 years. One of the other 
ones has been there 3 years, but I think three of them have 
actually got other experience with the agency.
    Chairman Shaw. How many children are under your supervision 
now?
    Ms. Loehndorf. I personally have close to 50 kids--a little 
over actually 50 kids. It is hard because----
    Chairman Shaw. Is that typical?
    Ms. Loehndorf. In my unit, what you have is the more 
experienced workers have much higher caseloads because what 
happens--and we just had this happen last week, which is why I 
have to go recount again. The other counselor who had been 
there a number of years, she left. So we just got another 
caseload divided out among those of us who are taking cases. 
The ones in training obviously cannot. So the higher caseloads 
stay with those of us who have been there, which puts us at a 
real disadvantage because when you are working with that many 
kids, something is going to get away from you. You are just not 
going to make everything you are supposed to do.
    Chairman Shaw. You listened to Mr. Brown's testimony. Would 
you say that the problems in Palm Beach parallel the problems 
in Broward County?
    Ms. Loehndorf. Yes, I would.
    Chairman Shaw. Mr. Brown, what training is available right 
now if we were--you heard Ms. Meyer say that we should 
immediately implement this, you hear the Sheriff refer to the 
really skimpy training program that we have. And I assume that 
you can confirm that we are talking about an hour video? I 
would like for you to either confirm or deny that. And if you 
were trying to implement some greater training at this 
particular point, which the Federal Government, by the way, I 
think we fund that at 75 percent, what would you do?
    Mr. Brown. I agree with Judge Kearney and the other 
panelists here today. We have only provided minimum services or 
training to our counselors, and that compounds the problems 
that we have in this agency. I agree with the Sheriff, we need 
about 40 hours of in-service training every year ongoing for 
the existing counselors and probably twice as much for new 
people coming on staff, because most of these people come on 
staff with other types of degrees. And that's one of the 
problems in this system too. What we have tried to do in 
Broward County over the last year that I have been the district 
attorney with social work degrees and sometimes advanced 
degrees. But again, the thing that compounds the problems, Mr. 
Chair, is that you cannot afford to pay these people to keep 
them once you get them. So you get them here, you take them 
through 3 months of training and that is what we provide to 
these people, and then they come in and then they find the 
working conditions that have been placed upon them and the 
minimum pay that they are receiving and the lack of resources, 
and they leave.
    Chairman Shaw. What is the turnover rate?
    Mr. Brown. It was 61 percent the first year and right now 
it has been over the last 9 months about 38 percent.
    Chairman Shaw. What effect does that have on the kids that 
they serve, the fact that there is no stability, the fact that 
there is a turnover, the fact that every time somebody knocks 
on the door, it is somebody else?
    Mr. Brown. It not only affects the kids, sir, it affects 
our presentation in court, it affects the attention we are able 
to give to the foster parents, it affects everything we try and 
do. You do not have a stabilized work force, you are constantly 
passing the cases to other people and you are constantly trying 
to meet all the goals that are mandated by policies and 
procedures and it is just impossible to do the job.
    Chairman Shaw. So what we have are kids that are going from 
foster family to foster family, counselor to counselor.
    Mr. Brown. It is a catch-22.
    Chairman Shaw. What is the average stay in foster care in 
Broward County? Have you implemented the 15-month mandate that 
the Federal statute has, which I think Debby Sanderson said was 
actually reduced to 12 months in the State of Florida.
    Mr. Brown. You know, sir, the rewrite of 39 happened during 
this past legislative session and October 1 we started the 
implementation of it. But to be honest with you, our department 
has not trained our staff properly. We are presently looking at 
those children that have been in care over 12 months, but we 
have only been in this change of chapter 39 a couple of months 
and we have not impacted those children that have been in over 
15 months at this time. I would think in a couple more months, 
those cases will start being presented to the courts and 
hopefully we will be moving some of those kids to permanency.
    Chairman Shaw. How many caseworkers do you have now?
    Mr. Brown. I have 171 caseworkers with the new 
appropriation that I received this past legislative session in 
the foster care arena. When I say foster care arena, we have 
blended protective supervision and foster care. And then I have 
63 positions in the protective investigative unit that the 
Sheriff has alluded to taking over.
    Chairman Shaw. Do you have any suggestions as to how 
Federal law might be adjusted to help you out here?
    Mr. Brown. Well, I think we have major problems with our 
categoric funding and I think that that needs to be addressed, 
because for example, this past week, the money has been 
allotted to us for our out-of-home care budget and this year we 
got $7,319,000. I said earlier that we had an $11 million 
deficit, so we are out of money in that category and we have 
very little flexibility of moving dollars around. So then we 
have to go back to the central office and the Secretary then 
has to go to the legislators to try and make the necessary 
changes in the budget so that we can pay our bills. I think 
that we need to be cognizant of the fact that we need more 
flexibility in moving money around so that we can operate and 
so we can develop the needed resources to protect children in 
this county.
    Chairman Shaw. Does Florida law have flexibility to address 
the increased population that you are serving?
    Mr. Brown. No, sir. As a District Administrator, we can 
only adjust the budget by 10 percent. And if you are paying $2 
million a month for services for children and you have a budget 
of let us say $7 million, it does not give you much latitude.
    Chairman Shaw. Does all your money come from the State?
    Mr. Brown. Yes, sir.
    Chairman Shaw. You get nothing locally?
    Mr. Brown. We get public-private donations, we have a----
    Chairman Shaw. I am talking about government money.
    Mr. Brown. No, sir.
    Chairman Shaw. All right, I want to thank all of you. Did 
you have anything further you wanted to ask?
    Well, let me ask Ms. O'Day a question regarding what we 
have heard on both sides of the question of privatization. What 
changes do you see in Federal law with regard to privatization? 
I think somebody earlier, and I think it was an earlier panel, 
mentioned that the training money on privatization is 50 
percent whereas for government funding is 75 percent. And I 
think that is something we should look to. Where are you seeing 
privatization across this country, what programs should we be 
looking at as things that are working? Where would you suggest 
we might want to look to see how this is all working out?
    Ms. O'Day. I do not think that we have arrived at a 
solution where privatization is concerned. I think that these 
are experiments that we are trying to deal with a tremendous 
problem that requires increasing resources and we are trying to 
do this within the resources that we can put to the problem.
    We do need more flexibility from the Federal funding and we 
need the Federal funding to incent, that is to provide 
incentives for the system to move children out of care and have 
good outcomes for them while they are in care. We need to be 
tracking how children are doing, are they doing well in school, 
are they reaching their developmental milestones, are they able 
to leave foster care and become productive citizens? So we need 
to be focusing more on outcomes and the Federal funding needs 
to incent those outcomes. There is definitely a role for the 
government in child welfare, we cannot turn the whole system 
over to the private sector and expect the private sector to 
solve all those problems themselves. But the government needs 
to do monitoring, it needs to do data collecting, it needs to 
do incenting and the private sector needs to be free to 
innovate, to bring private resources on board to enhance the 
system and to work for more flexible and creative solutions.
    Chairman Shaw. But you do not have an exact one to point 
to?
    Ms. O'Day. I cannot give you a model where privatization 
has been implemented and we can say that is it, it is perfect, 
we want to try and do it just like that. No, the Child Welfare 
League is working with looking at some of those early 
initiatives. Some of the privatization projects are still too 
new, the data are not in yet, we do not really know how they 
have done. We do know that in Kansas, a lot of the private 
agencies lost millions of dollars the first year out because 
there were not effective cost estimates. We do not really 
know--they have not really tracked how many children are 
involved and exactly what it cost and how to reduce those 
costs.
    Chairman Shaw. I would just open up one further area that 
no witness has really spoken to and I will just throw this out 
to anyone who wants to catch the ball, or maybe it is not even 
within anybody's experience, but is there anything we are doing 
about these kids once they reach 18? Some of them, probably a 
good percentage maybe have a year or two of high school left or 
something of this nature. Are we addressing that problem? Can 
somebody jump in and tell me what we are doing?
    Ms. Loehndorf. If the child is 18 years of age and they are 
still involved in school or in going with higher education, 
they can stay in and we continue their cases and we continue 
paying their board payments, or if they go into the independent 
living program, we continue with that as long as they are in--
--
    Chairman Shaw. So there are resources out there for those 
that want to continue their education.
    Ms. Loehndorf. Yes.
    Ms. O'Day. If they can stay in the system that long. The 
problem is that a lot of times there is turnover and with the 
lack of appropriate care, they drop out of the system 
themselves by running away. As Mr. Talenfeld has alluded to, 
and I have worked with these kids at Covenant House, they solve 
their own problem by saying you guys do not know how to take 
care of me, I know how to take care of myself. And so they do 
not get those benefits because they do absent themselves from 
the system.
    Chairman Shaw. Let me just throw one further thing out. We 
heard this in a hearing in Washington and I told this story 
already once this morning and I warned the people that I told 
it to that they may be hearing it again, because it is 
something that really had a profound effect on me.
    The adopting agency of the State, this woman was testifying 
before our Committee and told us the story, it went like this: 
A little girl 3 years old being introduced to her new adopting 
parents, stood there and looked at them for a moment and then 
put her hands on her hips and looked them straight in the eye 
and said, ``Where have you been?''
    Now if that does not put a tingle through you, if that does 
not tell you that our job is to get these kids into permanent 
homes when we know that they are not going to be able to get 
back to their family, and you see that they would be in danger 
in getting back to their family--that is what our job is, and 
do it as quickly as possible. It is a national disgrace, it is 
not a Florida disgrace, not a Broward County disgrace, it is a 
national disgrace that these kids have been allowed to stay in 
foster care so long when there are potential parents out there 
who are ready, willing and so anxious to embrace them, to have 
a family themselves. This is something we cannot tolerate.
    At the Federal level, we have taken down all the barriers 
that we know of to adoption. It is now up to the States. In 
fact, we have mandated it to the States as part of the funding, 
to shorten this time. We have got to get these caseworkers in 
and we have got to get all of these people in and retrained as 
to exactly what it is that we are going to do and what we are 
about. And that is what is so important.
    You all are doing the Lord's work and God bless you. Thanks 
for being with us today.
    [Whereupon, at 12:23 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]

Statement of Gordon Johnson, President and Chief Executive Officer, 
Jane Addams Hull House Association, Chicago, Illinois

  Addendum to the December 14, 1998 Child Protection Hearing in Fort 
                          Lauderdale, Florida

    News headlines are filled with the evidence that our 
national child protective systems are in crisis.
    <bullet> Increasing numbers of children with more acute 
needs are entering the system.
    <bullet> In far too many instances children suffer great 
harm or death at the hands of the system designed to protect 
them.
    <bullet> Biological families have multi-layered problems, 
including rising instances of drug use and addiction, that are 
difficult to address within short periods of time.
    <bullet> Public foster care systems are overwhelmed and 
underfunded. Case workers carry case loads far in excess of 
prudent professional standards. Foster parents cycle through 
the system, burned out and fed up by a lack of responsiveness 
and bureaucracy.
    <bullet> Children cycle through numerous foster placements, 
often failing to receive needed treatment and services.
    <bullet> Many children, particularly older children, those 
with special needs and large sibling groups, languish in foster 
care for years with no permanent placement plans.
    <bullet> The shortage of foster homes leads workers to 
split children apart from their brothers and sisters when they 
enter the system, thus increasing the trauma these children are 
already enduring.
    <bullet> Older youths who have been in the foster care 
system for years are pushed out of that system when they reach 
the cut off age. They are left to find their own way to an 
independent lifestyle with little or no preparation or support.
    In short, the public system that we, as a society, have put 
in place to protect our children is failing them and their 
families. These are not simple problems and there are no 
simple, easy solutions. However, organizations like Chicago-
based Jane Addams Hull House Association in the private sector 
have some of the solutions to some of the problems; solutions 
that are effective and cost-efficient.
    Jane Addams Hull House Association has developed two 
programs in Illinois that are specifically designed to meet the 
needs of two populations of children that are often not 
addressed by typical public child welfare systems: older youths 
and large sibling groups.
    Older youths, who have typically been in the foster care 
system for years, are often simply abandoned when they reach an 
age where they are legally no longer in the care of the public 
child welfare system. With no training, support or guidance 
they have an inordinately difficult time making the transition 
to independent, self-sufficient adults. Sadly, many simply do 
not make it, ending up in jail or on the streets.
    Sibling groups are often separated when they are taken in 
to protective custody because the child protective systems in 
this country have not made specific provisions to keep them 
together. Separation from their brothers and sisters heightens 
children's sense of loss and makes it more difficult for them 
to adjust to new situations and people. It also makes working 
with biological families more difficult and less effective. 
Where reunification with their biological family is not 
possible, these siblings, once separated, face the possibility 
of remaining permanently separated either through adoptions by 
different families or simply by languishing in separate foster 
care placements for years.
    Jane Addams Hull House Association designed two programs to 
specifically meet the needs of these youth and children. New 
Directions is an independent living program that provides a 
supportive environment while teaching youth the skills they 
need to become self-sufficient. Neighbor to Neighbor is a 
foster care program specifically designed to keep sibling 
groups together in their own communities and to either reunite 
them with their biological parents or find permanent homes in 
which the siblings remain together.

 Jane Addams Hull House Association New Directions Independent Living 
                                Program

    The New Directions Program is designed to help troubled 
teens learn to live independently and build responsible, self-
sufficient lives. The program serves approximately 200 youth 
ages 17 to 21 who are currently in the custody of the Illinois 
Department of Children and Family Services but are soon going 
to ``age out'' of the system and be left to make their own way 
in the world.

The Problem:

    <bullet> Many of the youths served by New Directions have 
been in foster care or residential treatment facilities for 
substantial periods of time.
    <bullet> These youths have typically bounced around a 
series of placements, have little contact with their biological 
families and few support systems to help them as they must make 
the transition to being totally self-sufficient.
    <bullet> Left to make these transitions totally on their 
own, many youths have trouble getting or keeping a job or 
continuing their education, and others get into trouble with 
the law.

The Solution:

    New Directions provides a supportive environment and 
individualized training for these teens as they make this major 
life transition. Through an extensive network of educational 
and job placement programs, medical and psychological services 
and a professional staff available around the clock, New 
Directions provides the hands-on support these youths need.
    <bullet> According to an individualized care plan, each 
teen is placed in a furnished apartment near transportation to 
work or school. Program participants must be in school or have 
a job.
    <bullet> A case manager provides adult supervision and 
instruction in such basic skills as grooming, shopping, 
managing money, job interviewing and socializing.
    <bullet> The teens receive weekly stipends for food and 
utility bills until they have adjusted to their new 
environments and are financially secure.
    <bullet> The program also accommodates adolescents with 
special medical needs or those who are pregnant or parenting.

The Results:

    Most of the young men and women have made substantial 
progress--returning to or graduating from high school, 
completing their GED, attending college or pursuing careers.
    Since 1991, more than 1,269 teen wards of the state have 
benefited from New Directions, and its companion programs, 
Pregnant and Parenting and the Hull House Association Advocacy 
and Transitional Living Program.
    84% of the New Directions graduates are still in school or 
working, have received their degree, are living on their own, 
and have not fallen back to dependence on state programs.
    New Directions was recognized in a recent Price-Waterhouse 
study as being among the top ten national programs meeting the 
needs of this at-risk population.

    Jane Addams Hull House Association Neighbor to Neighbor Program

    Hull House Association has designed a program that 
successfully keeps sibling groups together in stable foster 
care homes within their own communities. The program currently 
serves 100 children on the south side of Chicago.

The problem:

    <bullet> Despite a federal mandate to keep siblings 
together, most of the 500,000 kids in foster care nationwide 
are separated from their siblings, with no idea when or if they 
will ever be reunited or even see each other again.
    <bullet> The pressures of more and more kids coming into 
the child welfare system, mean that the emphasis is on simply 
finding open slots for kids, not on finding placements that can 
keep all of the kids in a sibling group together. Foster homes 
are filled up piecemeal, based on open slots and preferences of 
the care givers.
    <bullet> Being separated from their brothers and sisters is 
incredibly traumatic for children. It increases the problems 
they have in foster care. Many siblings are never reunited, 
leaving life-long scars for these children.
The solution:

    Hull House Association set out to design a program that 
could effectively keep sibling groups together. DCFS provided 
the funding for Neighbor to Neighbor. The program has several 
basic features that make it effective at keeping kids together:
    <bullet> We hire foster parents as employees of Hull House 
Association and give them the time and support they need to 
deal with the special needs of sibling groups. We make them a 
part of the therapeutic team making decisions about the 
children in their care. As employees of Hull House, they 
understand that the mandate is to provide care for entire 
sibling groups.
    <bullet> We view foster care as a supportive system--not a 
substitute system--for children and their families. We work 
intensively with biological families, offering an array of 
services and resources to provide the best possible 
opportunities for families to be reunited. Where reunification 
is not possible, we work towards healthy, stable permanent 
placements that keep sibling groups intact.
    <bullet> We keep families in reserve to take entire sibling 
groups. We do not fill up slots piecemeal.
    <bullet> We streamline care and make it more effective; for 
instance therapists and case managers working with these 
children and families can work with them together in one place, 
rather than scheduling multiple visits in locations all over 
the city and state.

The results:

    Researchers from the University of Chicago recently 
completed an independent evaluation of the program and the 
results show that this program is very successful at:
    <bullet> Keeping brothers and sisters together in their 
neighborhoods
    <bullet> Stabilizing their placements so they do not cycle 
through an endless series of foster homes. The retention rate 
for Neighbor to Neighbor foster care givers averages 90 
percent. On average, only 9 percent of children are moved from 
one foster home to another once they enter Neighbor to 
Neighbor; even when this is necessary, the siblings remain 
together.
    <bullet> Working successfully with foster and biological 
families toward reunification; the reunification rate for this 
program is more than double the average.
    <bullet> Streamlining care; making it more efficient and 
effective
    We believe this program could serve as national model for 
keeping sibling groups together. We need to commit ourselves to 
devising and funding foster care programs that truly work to 
reduce the loss and trauma these children experience.

    [Attachments are being retained in the Committee files.]
      

                                <F-dash>

                              Hon. Julie Koenig            
                              Circuit Court Judge          
                           Seventeenth Judicial Circuit    
                          Broward County Courthouse        
                                      Fort Lauderdale, FL 33301    
                                                  December 15, 1998
Congressman E. Clay Shaw
Fort Lauderdale, FL 33301

    Dear Congressman Shaw:

    The current foster care system and the dependency court have been 
the subjects of numerous
    newspaper articles. In order to synopsize my conversation with 
Steve Effman and Johnny Brown regarding improvement of the dependency/
foster care system, I would like to suggest the following:
    I. Children spend approximately 42 months in foster care both 
statewide and in Broward County. If we could reduce the time to 12 
months (according to the statutory guidelines), we could reduce our 
foster care population by 70%. We can do that by doing as follows:
    a. All foster care status hearings should be heard by General 
Masters (who should be experienced dependency attorneys).
    b. Each dependency case which involves a child of 4 years or 
younger should have a status hearing every 2 months in order to 
determine if the childs parents are remediating the conditions which 
caused the dependency, and if the childs special needs are being met. 
If no significant remediation is made by the parent(s) after 6 months, 
a termination of parental rights petition should be filed and served 
within 10 days.
    c. Each dependency case with a child over 4 years should have a 
status review every 3 months. If no significant remediation is made by 
the parent(s) within 9 months, a TPR petition must be filed and served 
within 10 days.
    d. A sufficient number of General Masters who are experienced 
dependency attorneys must be hired to have a status hearing of 15-30 
minutes every 2-3 months on every foster care case.
    e. Case managers who work for the dependency divisions must be 
hired to oversee the cases and determine if judicial orders are carried 
out. Case managers will also bring C&F case
    worker failure to the immediate attention of GM / Judge and perform 
on site status investigations (one Case Manager per Judicial Officer).
    f. Termination of Parental Rights trials must be scheduled as soon 
as the TPR petitions are drafted and must be put on every civil judges  
docket until the emergency situation currently existing is remedied. 
All TPR trials are to be expedited on judicial dockets.
    g. All dependency/foster care cases must be identified by the clerk 
and case managed by the GM/Judge in order that the Judges know at all 
times which cases are currently pending.
    II. Children in foster care receive no financial support from their 
parents. The State pays their medical, board etc. without requiring the 
parents to pay child support.
    a. Child support General Masters should be available at every 
detention and status hearing to set child support for both parents, to 
determine paternity if the child is born out of wedlock, and to enforce 
child support. A DOR attorney must represent the State at this hearing.
    b. Children of divorce or paternity cases receive support from the 
absent parent or by law the absent parent is incarcerated for failure 
to pay child support if said parent has the financial ability to pay. 
Incarceration is often the ultimate persuasion for non-supporting 
parents to pay. I suggest that in dependency cases, the parents will 
either pay(and remediate the conditions which caused the dependency) or 
fail to pay and be jailed. Parents who have no motivation to remediate 
and pay will surrender their parental rights rather than be jailed, 
thus freeing children from the system.
    c. More money from dependency child support increases services to 
children. If both parents each earned $650 per month the board rate of 
$300 per month could be assessed according to child support guidelines. 
This would bring approximately $36 million dollars into C&F. The 
legislature has established a Foster Care Child Support Trust fund; for 
the first nine months of the 1995-96 fiscal year $100,000 was 
collected.
    d. Currently the Department of Revenue does not establish or 
enforce child support for
    dependent children in foster care.
    III. Children in foster care receive little community support.
    a. Establish a high profile, active, hardworking board who knows 
how to publicize the needs of foster care children and make foster care 
children more visible in a positive way in the same way cancer or the 
disease of the month is supported. This board would need to be educated 
about foster children in order that they in turn educate the public 
about the needs and availability of children for fostering and 
adoption. We need a high profile board to market these children to the 
public. (For example: every soccer, T-ball, basketball, baseball 
community team could sponsor a foster child, but we need community 
leaders to assist this process.)
    b. This Board should also act as in a quasi supervisory role 
regarding C&F and how they meet the needs of foster children. The board 
will have contacts with professionals in the community who may provide 
pro bono services.
    IV. Foster parents are skewed demographically to low income 
families. The mean statewide foster family income is approximately $25, 
000. Children who are adopted by their foster parents or out of foster 
care receive State paid financial stipends until the child reaches his 
18th birthday.
    The State of Florida currently supports all foster children (except 
my daughter) who have been adopted.
    a. Recruit a more financially heterogeneous population of foster 
parents.
    b. Immediately go to every public school at the next teachers 
workday to recruit foster parents.
    1. Teachers generally love children, but most teachers don't 
understand how foster care/adoption works.
    2. Teachers have expertise in child training; many teachers have 
room in their homes and their hearts for a child.
    3. Teachers often have many resources not available in the general 
population.
    4. Very few foster children ever complete high school in Broward 
County.
    c. Recruit psychiatric social workers, nurses, doctors, and health 
care professionals for special needs children.
    V. Adoption of children from foster care needs to be marketed to 
the general public in a positive and professional manner.
    a. Broward County parents are going to Russia, China, Yugoslavia 
and Central and South America to adopt at great expense because they 
cant find a U.S. child to adopt. Adopting a child from overseas 
frequently costs $25,000.
    b. Thousands of children in foster care need to be adopted.
    c. Children in foster care for the 44 months average have bonded 
with their foster parents or are virtually unadoptable because of 
behavior problems.
    d. If we can meet the needs of a dependent child and free him for 
adoption in 6-12 months, we will have to find immediate adoptive 
placements. We need these new adoptive parents to be able to support 
the adoptive child financially as opposed to the State paying the 
childs support until he is 18. We need to involve private adoption 
attorneys with foster children in order to garner more adoptive 
parents.
    This outline is a product of many years as a teacher, dependency 
attorney, child support enforcement attorney, and a family law Judge as 
well as all the doctoral coursework for an Ed. D in administration. If 
we utilize strong remedies, we need strong remediators. I suggest that 
C&F review the list of their best workers and attorneys over the past 
15 years who may have quit in desperation and invite them to assist in 
the change of the system.

            Sincerely,

JK/ps

cc: Chief Judge Dale Ross
  Court Administrator Carol Lee Ortman
  District X Administrator Johnny Brown
  Senator Walter Skip Campbell
  Representative Eleanor Sobel
  Representative John Rayson
  Representative Steve Effman
  Representative Kenneth Gottlieb
  Representative Debbie Sanderson

                                   - 

</pre></body></html>
